<html>
<title> - ASSESSING THE TRANSITION IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 113-149]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-149
 
                       ASSESSING THE TRANSITION 
                             IN AFGHANISTAN 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 11, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations

      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut      RAND PAUL, Kentucky
TIM KAINE, Virginia
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        



                            C O N T E N T S

                              ----------                              
                                                                   Page

Chayes, Sarah, senior associate, Carnegie Endowment for 
  International Peace, Washington, DC............................    36
    Prepared statement...........................................    39
Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     3
Dobbins, Hon. James, Special Representative for Afghanistan and 
  Pakistan, U.S. Department of State, Washington, DC.............     5
    Prepared statement...........................................     8
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    52
    Responses to questions submitted for the record by Senator 
      Robert P. Casey, Jr........................................    54
    Responses to questions submitted for the record by Senator 
      Jeff Flake.................................................    56
Hadley, Stephen, senior advisor for international affairs, U.S. 
  Institute of Peace, Washington, DC.............................    31
    Prepared statement...........................................    33
Lavoy, Dr. Peter R., Acting Assistant Secretary of Defense for 
  Asian and Pacific Security Affairs, U.S. Department of Defense, 
  Washington, DC.................................................    12
    Prepared statement...........................................    13
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    58
    Responses to questions submitted for the record by Senator 
      Robert P. Casey, Jr........................................    61
    Responses to questions submitted for the record by Senator 
      Jeff Flake.................................................    61
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Nadery, Ahmad Nader, founder and chairman, Fair and Free 
  Elections Foundation of Afghanistan, Kabul, Afghanistan........    41
    Prepared statement...........................................    42

                                 (iii)

  


                       ASSESSING THE TRANSITION 
                             IN AFGHANISTAN

                              ----------                              


                        THURSDAY, JULY 11, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Casey, Murphy, Kaine, 
Corker, Risch, and Johnson.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good morning. This hearing of the Senate 
Foreign Relations Committee, ``Assessing the Transition in 
Afghanistan,'' will come to order.
    Today's hearing on Afghanistan comes none too soon. With 
63,000 U.S. troops still based there and the upcoming political 
and security transitions in 2014 just around the corner, now is 
the time to take stock of our efforts and make any necessary 
changes. Most importantly, given recent speculation about our 
intentions, this means the United States needs to make clear 
once again that we are committed to a long-term partnership 
with Afghanistan. Period.
    Let me be clear because I believe this is a fundamental 
point. As long as the Afghan people and their government want 
the United States as a partner, we do not intend to leave 
Afghanistan. Our goal, our clear intent is to stay committed 
with both security and civilian assistance post-2014.
    I am fully aware that there is a deep-seated anxiety in the 
region about what the U.S. troop presence will look like post-
2014. I heard it firsthand when I was in Afghanistan and 
Pakistan earlier this year, and I know Senator Corker heard it 
on his travels to the region just last week.
    As President Obama has said repeatedly, the United States 
is planning on leaving behind a United States force presence to 
support the Afghan security forces if the Afghan Government 
wants it. But we need a workable bilateral security agreement 
acceptable to the United States. President Karzai must now 
decide whether his government is willing to accept a longer 
term U.S. troop presence by coming back to the negotiating 
table with acceptable terms. The ball is in his court, but he 
and the Afghan people should understand that if we fail to 
reach an agreement, it will not be for lack of trying on 
America's end.
    For our part, I believe that President Obama should signal 
to the Afghans and our allies what the post-2014 U.S. troop 
presence will look like governed by a security agreement. The 
lack of clarity on this point has led to too much hedging in 
the region. Afghans who may otherwise be interested in building 
a fledgling democracy want to know that they will not be 
abandoned by the United States as the Taliban claims they will 
be.
    These are the very Afghan allies we need, those committed 
to democracy, people like Lt. Islam Bibi, the most senior 
Afghan female police officer in Helmand province who survived 
three death attempts by her own brother for enlisting and who 
was tragically shot dead last week by assailants. Afghans like 
her are counting on us to support a successful and inclusive 
political transition next year so that the country does not 
return to civil war.
    So I want to reiterate that from my perspective, the ball 
is in President Karzai's hands, and I hope he does not think 
that this is a question of simply leverage for him. If he does, 
then he is sadly mistaken.
    The other most important piece of this puzzle is getting 
the 2014 elections right because ultimately it is the political 
transition that will determine whether we have a successful 
security and economic transition.
    I am very pleased that Senate Resolution 151 that I 
sponsored with Senators Casey and McCain passed this week 
urging the Afghan Government to ensure transparent and credible 
elections. Many of us here in Congress are concerned that the 
window for establishing a successful election framework for 
next April's vote is closing. There is little time left to get 
a credible preelection process off the ground. Delays in 
approving new electoral laws and new appointments to the 
Independent Election Commission, Complaints Commission, and 
Supreme Court could undermine the entire process. Afghan 
political stakeholders must come together and agree to fair 
rules governing the elections to ensure that the process and 
outcome is accepted by all parties. And now is the time for the 
United States, the United Nations, and all our allies to speak 
with one unified voice about what is really at stake here. We 
must convince the Afghan people that having credible and fair 
elections on April 5, 2014, is our No. 1 priority in 
Afghanistan. And President Karzai should understand in clear 
terms that his legacy of leaving behind a stable Afghanistan 
that is supported by the international community will be in 
serious jeopardy with a flawed election outcome.
    Already the Obama administration has requested $3.4 billion 
in civilian assistance for Afghanistan in 2014, more than it 
has requested for any other nation, bringing total United 
States civilian aid to about $20 billion. But before Congress 
approves additional funding, we need to know that the Afghan 
Government is serious about holding credible elections in April 
2014 and upholding the reform commitments it made in Tokyo last 
year.
    Congress also needs to hear from the Obama administration 
about how it is addressing serious problems raised by the 
Special Inspector General for Afghanistan Reconstruction. 
Though many of our aid programs have helped raise the quality 
of life for many Afghans, some of them are ironically working 
against our collective interests. I am baffled, for instance, 
that the Pentagon purchased about 800 million dollars' worth of 
aircraft, including 30 Russian helicopters, when the Afghan air 
unit lacks basic capacity to operate them. I am also skeptical 
about some of our INL programs relating to counternarcotics and 
rule of law efforts in Afghanistan and have asked SIGAR to 
fully investigate if our multibillion dollar investments in 
this area make sense.
    As we draw down in Afghanistan and move to third-party 
monitoring of our civilian assistance programs, this committee 
wants assurances from the State Department, USAID, and Defense 
Department that they are making real oversight reforms as laid 
out by SIGAR and others and are making oversight a priority 
during and after the transition. With billions of dollars at 
stake, we cannot afford to keep doing business as usual.
    There are a lot more areas I would like to cover, including 
Pakistan's role in the transition and whether we have made 
lasting security gains, but for now, let me save that for the 
questions and answers and turn to my distinguished ranking 
colleague, Senator Corker, who has just returned from the 
region, for his own opening statements.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Mr. Chairman, thank you for calling this 
hearing. And I do want to say that I appreciate working with 
you. I think that it has always been the hope that foreign 
policy and partisanship dissipate at the shoreline. And I think 
the way we work together on this committee has demonstrated 
that, and I very much appreciate your comments. I am going to 
take a slightly different take, but I think your concerns about 
Afghanistan and Pakistan are similar. And I look forward to 
working with you as we try to craft policies. And I thank you 
for doing that on Syria.
    With that, I want to thank the witnesses today, both the 
first and second panels. We have a little bit of an issue that 
has arisen that is going to be brewing next week, and at 11 
o'clock I am likely to have to depart. But I know that we had a 
classified briefing earlier this week, and we have had a chance 
to talk with you all as well. I know the second panel is made 
up of people that I very much respect, and if I miss you, I 
apologize.
    But I want to say that this last week I spent a good part 
of a day in south Waziristan and saw the roadways that we are 
building with U.S. dollars, the dams that we are building with 
U.S. dollars, the transmission lines that we are building with 
U.S. dollars in an area that was, let us face it, not very long 
ago the center of al-Qaeda activities. And I saw the benefits 
of that. There is no question that bringing civilization to 
that part of the world and the chance for economic growth 
certainly changes the dynamic. And so I want to applaud--I know 
the chairman was involved in that and others have been too.
    On the other hand, as Admiral Mullen testified here 2 years 
ago, we know, for a fact, that the ISI, the intelligence arm of 
the Pakistani military, is helping coordinate directly 
activities with the Haqqani network in Afghanistan in 
conducting high profile activities that are designed to kill 
and maim Americans and destabilize the country. And we know 
that.
    And I say to the two of you--you have a difficult job. It 
is complex. But we have got to rectify that problem. And as we 
move ahead with looking at aid, I have a feeling the chairman 
is going to be looking at those issues in a similar light. But 
we have got to rectify this bipolar activity that is taking 
place that is not in our U.S. interest.
    Now, Pakistan has security problems within the country. 
Candidly, down the road I have a feeling we are going to be 
worried about Pakistan being a stable country and a country 
with a lot of nuclear weapons on mobile launchers. Certainly 
that is a problem.
    But let me move to Afghanistan, and I am going to say some 
things that are a little bit out of my character but I am going 
to say them. Look, I think that everybody knows over the next 6 
months, actually between now and April, it is a very important 
time in Afghanistan. The bilateral agreement we know needs to 
be done by October, and I know that you all are working toward 
that end. And I know that you know the election being free and 
fair, generally speaking per Afghanistan standards, is 
something that is very important and I know that there are 
people there on the ground both on the Afghan side and our side 
trying to make that happen.
    This administration, though, has tremendous difficulty 
making decisions. This administration has multiple voices 
within it that keep it from having clarity. And I have to tell 
you, as the chairman mentioned, I think the administration has 
got to quit looking at its navel and make a decision on what 
the force structure is going to be in Afghanistan. Our allies 
are going to have difficulty planning and provisioning if we 
wait much longer. Capital outflows out of Afghanistan are 
increasing dramatically which is causing the economy to be less 
than it could because we have yet to state what we are going to 
do, generally speaking, as it relates to force structure. And I 
know that we will not do anything if we do not end up with a 
bilat--agreement.
    But I think the fact is that we have got to go ahead and 
tell our allies, tell the people in Afghanistan what we are 
going to do, generally speaking, as it relates to force 
structure. And I am telling you this continued looking at our 
navel, trying to make a decision, having competing forces at 
the White House is hurting us. It is hurting our efforts in 
Afghanistan. It is hurting our military and it is hurting our 
allies.
    Now, Karzai. Karzai is the most frustrating world leader we 
have probably dealt with in a long time. He is irrational. It 
is hard to believe that he believes the things that he 
believes. But he truly believes today that we are in cahoots 
with Pakistan and trying to destabilize the country, as crazy 
as that is. The fact that we have spent hundreds of billions of 
dollars there, we have lost American lives and limbs, and the 
fact that he today believes that somehow or another we are 
coordinating with Pakistan to destabilize it is almost beyond 
belief. But the reason he does is because he knows the first 
fact that I just mentioned and that we have noticed here in 
this committee for a long time.
    I think he also believes--I do not think he believes this 
with all his heart. I think he thinks--I do not believe this, 
by the way, and I want to make this clear to anybody listening. 
I do not believe this. I think he believes there are some 
people within the administration that because of previous 
political issues, almost want Afghanistan to fail. I do not. He 
is a strange person.
    I will say--and this is a minor detail--I think we have 
helped create the kind of relationship that we have with him. 
Since no one at the administration will talk with me about some 
of the questions I have asked about our support of him 
personally, I would not be surprised if we were supporting him 
personally prior to him even being President of Afghanistan. 
But I think we have helped create a monster here.
    So I would just say to the two of you, that you have a 
tough job. I am not speaking to you specifically as I say this, 
I am speaking to the administration. I know that we have a 
tough and difficult and frustrating person to deal with on this 
bilateral agreement, but I hope that this administration is not 
going to personalize it. I know that Karzai has embarrassed the 
President publicly by talking about the fact that he believes 
that he is working with Pakistan to destabilize the country, 
and I know that we have a lot of problems with Karzai. I am 
asking this administration to look beyond Karzai--he is going 
to be gone in April--to look at our national interests, to make 
some decisions with clarity and show some world leadership and 
do the things that we need to do as a nation to support these 
outstanding men and women in uniform that have sacrificed life 
and limb, the taxpayers that have sacrificed precious dollars 
and move on with this. I am very, very frustrated with this 
administration and its lack of ability to lead on this issue 
and to provide clarity.
    I hope your testimony helps us with that. I look forward to 
working with you. I thank you for being public servants. I know 
it is a frustrating job, but it is time to move on this issue.
    The Chairman. Thank you, Senator Corker.
    With that, let me turn to our witnesses and thank them for 
their participation today. On our first panel, we have the 
Special Representative for Afghanistan and Pakistan, Jim 
Dobbins, and Acting Assistant Secretary of Defense for Asian 
and Pacific Security Affairs, Dr. Peter Lavoy.
    And let me note that while Ambassador Dobbins has only been 
on this particular job for 2 months, he was the first senior 
American civilian into Afghanistan back in 2001 and raised the 
flag over the newly reopened U.S. Embassy in Kabul. So he is no 
stranger to the region.
    We look forward to your testimony. We ask you to summarize 
it in about 5 minutes or so so we can have a question and 
answer session. Your entire statements will be included in the 
record. And with that, Ambassador Dobbins.

  STATEMENT OF HON. JAMES DOBBINS, SPECIAL REPRESENTATIVE FOR 
AFGHANISTAN AND PAKISTAN, U.S. DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Ambassador Dobbins. Thank you very much, Mr. Chairman, 
Ranking Member Corker. Thanks for giving both Peter Lavoy and 
me an opportunity to appear before you, and thank you for your 
constructive opening remarks and your advice which we will 
certainly take to heart and make sure others in the 
administration are aware of.
    As you noted, I have only been in my current position for a 
couple of months, having come back essentially to the same job 
I had 12 years ago with respect to Afghanistan just after 9/11. 
And this may give me a somewhat different perspective than 
those of you who have been following Afghanistan from day to 
day.
    I know we tend to look at the efficacy of our efforts in 
Afghanistan day to day, project by project, measuring it 
largely in terms of inputs and outputs. But the true measure of 
our efforts in Afghanistan is not either what we put into it or 
the direct outputs, but rather the outcomes. The best measure 
of education assistance is not schools built or even students 
instructed, but literacy rates. The best measure of health 
assistance is not the number of hospitals built or even 
patients treated, but increases in longevity. Of course, it 
takes a long time to measure outcomes like this, but we have 
been in Afghanistan and helping Afghanistan for a long time 
now.
    By measures of this sort, outcome measures, and on the 
basis of some research that I completed with some colleagues at 
RAND just a few months before taking up my current job, I 
believe Afghanistan may actually be the most successful 
international effort at reconstruction in a conflict or post-
conflict country over the last quarter century.
    In a study that we did at the RAND Corporation, we looked 
at 20 cases over the last 25 years where there were civil and 
military interventions in a conflict or post-conflict 
environment. This included all the big United States efforts in 
Somalia and Haiti, Bosnia, Kosovo, Afghanistan, and Iraq and 
about a dozen smaller U.N. and other efforts of this sort. And 
we tried to measure the outcomes in these efforts over a 10-
year period using statistics and indices that were kept by 
Freedom House, the IMF, the World Bank, and UNDP.
    Afghanistan rated quite high on most of those indexes, but 
rather remarkably in the category of human development, it 
showed the best rate of improvement of all 20 of these 
countries. The human development is an index kept by UNDP and 
it measures a combination of health, education, and standard of 
living outcomes. And as I said, Afghanistan rated top of all 
20.
    Now, this is not just because it was the poorest to start 
with because some of the others were actually poorer. And it is 
not just because it got a lot of assistance because a couple of 
the others actually got more assistance on a per capita basis.
    What does this mean in practical terms? In Afghanistan, it 
means life expectancy has gone from 44 years to 60 years, and 
that is in a country that is still at civil war.
    What does it mean in terms of literacy? It means that 
Afghanistan has gone from having the worst rate of literacy in 
the entire world, maybe 15 percent back in 2001, to 33 percent 
literacy today and to 60 percent literacy by 2025, if the kids 
that are in school today stay in school.
    It means going from one TV station that was owned by the 
government to 75 nearly all independent TV stations.
    It means going from 40,000 telephones to 18 million 
telephones. It means cell phone coverage going from 0 to 90 
percent of the country.
    These are pretty remarkable outcomes. In fact, taken as a 
whole, they may be unmatched outcomes in a conflict or post-
conflict society.
    Now, this is a pivotal time. NATO and the United States are 
transitioning from a combat to an advisory and assistance role. 
As I think both of you stressed, the United States is committed 
to continuing to support a fully sovereign, democratic, and 
united Afghanistan. We do not intend to repeat the mistakes we 
made in the 1980s and 1990s. As the Afghans stand up, they will 
not stand alone. We remain committed to a long-term strategic 
partnership with the Afghan Government and the Afghan people.
    As the President said in January, along with President 
Karzai, the United States has two goals: Number one, to train, 
assist, and advise Afghan forces so they can maintain 
Afghanistan's security; and number two, making sure that we can 
continue to go after remnants of al-Qaeda or its affiliates.
    At the NATO defense ministerial this year in June, NATO 
allies and partners endorsed a detailed concept of the new 
mission for Afghanistan after 2014.
    Regarding the number of American troops to remain in 
Afghanistan--that is to say, the number of troops that would 
remain 18 months from now--the President is still reviewing his 
options. We are, at the same time, continuing our conversation 
with the Afghans about how we can carry out those missions. We 
have made significant progress on the text of a new bilateral 
security agreement. Of course, without an agreement on our 
presence in Afghanistan, we would not remain, but we do not 
believe that that is the likely outcome of these negotiations.
    Unlike Iraq to which comparisons are often made, the 
Afghans actually need us to stay. Most Afghans want us to stay, 
and we have promised to stay. None of these three things were 
true in Iraq, and all of these three things are true with 
respect to Afghanistan.
    While we continue to help Afghans take responsibility for 
their own security, we are also continuing to support an 
Afghan-led, Afghan-owned reconciliation process designed to 
find a political solution to conflict with the Taliban. At the 
same time, we must be clear that our main priority for the 
coming year is neither the military transition nor the 
reconciliation process, but rather the political transition 
that will occur when Afghan people choose a new President and a 
new President takes office next year. The future stability of 
Afghanistan rests on the peaceful transition of political 
authority in the course of 2014, and if this occurs, then I 
believe these other problems and challenges will resolve 
themselves quite satisfactorily.
    The first steps in this process is already underway, and we 
will continue to work with the Afghan Government to support 
their electoral process and achieve a successful and unifying 
political transition.
    Like any developing country emerging from conflict, 
Afghanistan will require international support for some time. 
We should, however, recognize that a country that a little more 
than a decade ago provided a haven from which the 9/11 attacks 
were planned has already become a staunch partner in the fight 
against international terrorism. There is much the Afghan 
people can be proud of, and we can be proud of, in the work we 
have done over the last decade and more.
    Thank you, Mr. Chairman, members of the committee. I look 
forward to your questions.
    [The prepared statement of Ambassador Dobbins follows:]

           Prepared Statement of Ambassador James F. Dobbins

    Mr. Chairman, Ranking Member Corker, members of the committee, 
thank you for the opportunity to appear before you today to discuss the 
progress of U.S. efforts in Afghanistan.
    Although I have been in my current position for less than 2 months, 
I did briefly occupy a similar position nearly 12 years ago, when, in 
the aftermath of 9/11, I was appointed the Bush administration's first 
special envoy for Afghanistan. In that capacity I represented the 
United States in the early diplomacy after 9/11 which led to the Bonn 
Conference and the establishment of an interim government in 
Afghanistan. The Bonn Conference set in motion the political process 
that produced a new constitution for Afghanistan and its first 
democratically elected government.
    Afghanistan is a remarkably changed place in 2013 as compared to 
2001. In 2001, fewer than 900,000 children--almost all boys--were in 
school. Today, that number is 8 million, more than one-third of whom 
are girls. Life expectancy has soared from 44 years in 2001 to over 60 
today. While maternal mortality rates remain too high in Afghanistan, 
women and children are far more likely to survive childbirth than they 
were 11 years ago. In 2001, Afghanistan had one state-run television 
station. Today, the media landscape is among the region's freest and 
most vibrant, with over 45 percent of Afghans owning televisions and 75 
television stations and 175 radio stations available. Afghans are more 
connected than ever with more than 18 million active cell phone 
subscribers and a combined phone network that covers 90 percent of the 
population. Remarkably, 80 percent of Afghan women have access to a 
cell phone today.
    To understand the significance of these types of changes, it is 
useful to put them in a broader perspective. A study I published with 
colleagues at the RAND Corporation just before taking this position 
looked at the 20 major post-cold-war civil-military interventions 
conducted by the United States, the United Nations, and others in 
conflict and post-conflict states. The study compared outcomes in those 
countries over the 10 years after each intervention. We found that 
Afghanistan--even though it was one of only four of the 20 countries 
still experiencing violent conflict--had by far the greatest 
improvement of all 20 in its Human Development Index score (measured by 
the United Nations Development Program), the second-greatest cumulative 
growth in per capita gross domestic product (based on International 
Monetary Fund data), and the third-best improvement in its government 
effectiveness score (measured by the World Bank).
    The Human Development Index is an especially useful indicator of 
Afghanistan's advancement. It is a composite measure of socioeconomic 
well-being that takes account of health, education, and income. Since 
2001, Afghanistan's Human Development Index score has improved faster 
than the world average, the South Asia regional average, and the 
average for countries with low human development. These objective 
advancements in Afghanistan cannot be explained simply by the low base 
from which progress has been made since 2001. Several of the other 20 
countries we studied were poorer to begin with and improved less 
rapidly over 10 years after intervention. Nor are these improvements 
just a manifestation of international aid, as Afghanistan was not the 
largest foreign aid recipient of the 20 countries on a per capita 
basis. These changes are real and can be expected to be durable.
    Afghanistan is still, of course, a poor country, and one that has 
suffered decades of conflict; it has a long way yet to go in its 
political and economic development. No society, whether it has been 
affected by conflict or not, can be lifted out of poverty, cleansed of 
corruption, and endowed with fully effective and resilient institutions 
in the short span of a decade. This is why it is most useful to assess 
progress against a realistic set of expectations.
    In this light, the outcomes produced by American, Afghan, and 
coalition efforts have been impressive, and color the prospects for 
Afghanistan's future in many ways. Crucially, the people of Afghanistan 
now have a strong interest in seeing the improvements in their country 
sustained and even further advanced. Hopes and expectations have risen 
for peace, for economic development, and for what the government 
delivers to the people. Afghanistan will not return to the conditions 
of 2001 as the U.S. role shifts in line with the transition processes 
and shifts in the security realm to supporting and assisting the 
Afghans.
    I am pleased to once again be working to advance U.S. efforts in a 
now vastly changed Afghanistan. This is a pivotal time: NATO and the 
United States are transitioning from a combat to an advisory and 
assistance role in Afghanistan; Afghan authorities are assuming 
responsibility for their country's security; and, most importantly for 
Afghanistan's future stability, next year's Presidential election 
presents an opportunity for the first transfer of power from one freely 
elected government to another in the country's history.
    Fifteen months ago, speaking at Bagram Air Base, President Obama 
discussed the five lines of effort that underpin U.S. policy in 
Afghanistan, all of which we continue to pursue: (1) successfully 
implementing the 2014 security, economic, and political transition; (2) 
strengthening the Afghan National Security Forces; (3) building a 
strong partnership with Afghanistan; (4) supporting an Afghan peace 
process; and (5) enhancing regional cooperation. The steady commitment 
of the United States, and the sacrifices the American people have made 
in lives and treasure, have resulted in progress in Afghanistan that is 
both significant and likely to endure.
    Against this backdrop our partnership with Afghanistan has 
continued to mature. The United States is committed to continuing to 
support a fully sovereign, democratic, and united Afghanistan. We have 
been clear in public and in private, as have many of our allies and 
partners in ISAF and in the broader international community, that we do 
not intend to repeat the mistakes of the 1980s and 1990s and that as 
the Afghans stand up, they won't stand alone. Through our Strategic 
Partnership Agreement, our robust civilian assistance within the mutual 
accountability framework, and our support to the ANSF, we remain 
committed to a long-term strategic partnership with the Afghan 
Government and the Afghan people.
    As the President said in January with President Karzai, the United 
States has two goals: Number one, to train, assist, and advise Afghan 
forces so that they can maintain their own security; and number two, 
making sure that we can continue to go after remnants of al-Qaeda or 
other affiliates that might threaten our homeland. That is a very 
limited mission, and it is not one that would require the same kind of 
footprint, obviously, that we've had over the last 10 years in 
Afghanistan.
    At the NATO Defense Ministers meeting on 5 June, NATO allies and 
partners endorsed a detailed concept of the new mission for Afghanistan 
after 2014.
    With respect to troop numbers, the President is still reviewing a 
range of options from his national security team and has not made a 
decision about the size of a U.S. military presence after 2014.
    We are continuing our conversations with the Afghans on how we can 
carry out those missions and have made significant progress on the text 
of a Bilateral Security Agreement (BSA). Before the suspension of the 
last round of negotiations by President Karzai, we felt we were nearing 
the completion of the technical aspects in the BSA and were very 
pleased with the productive negotiations to develop an agreement that 
served both countries' interest. Since the suspension, we continue to 
make clear that we remain prepared to negotiate and conclude the BSA. 
Of course without such an agreement, there could be no such presence, 
but we do not believe that the likely outcome of these negotiations.
    To bolster our partnership, over the past 2 years we have 
undertaken an active diplomatic campaign to rally regional and 
international support for Afghanistan through what we call the 
Transformation Decade after 2014. From Lisbon to Bonn to Chicago to 
Tokyo, the international community, together with Afghanistan, has 
built a framework that will help support Afghanistan through this 
formative period. A year ago, we agreed at Tokyo to put the 
relationship between Afghanistan and its partners on a foundation of 
mutual accountability; to pursue continued political, economic, and 
social development; and to support a secure, stable, democratic, and 
prosperous Afghanistan.
    The Afghan Government and donors met in Kabul last week for frank 
conversations focused on priority actions that were specified in the 
Tokyo Mutual Accountability Framework and that are required to achieve 
our shared goals. These actions include ensuring inclusive, 
transparent, and credible Presidential and provincial council elections 
next year; respecting and upholding human rights commitments, 
especially maintaining and improving the rights of women; combating 
corruption; transitioning from a donor-driven to private sector-led 
economy; improving governance; and ensuring continued development.
    We know that Afghanistan takes seriously the reform commitments 
made in Tokyo last year. These Tokyo commitments reflect Afghanistan's 
sincere desire to achieve self-sufficiency and economic sovereignty. In 
Kabul last week, we urged the Afghan Government to continue to press 
for the legislation and regulations required to strengthen electoral 
institutions, combat corruption, and facilitate economic growth. We 
also discussed the need to further improve the way international 
assistance is delivered. As part of our broader effort to enhance 
Afghan capacity and increase Afghan accountability, we continue to work 
hard with our Afghan partners to increase the amount of direct 
assistance provided through the Afghan Government. This decision 
reflects our bilateral commitments to align our programming with Afghan 
priorities as well as our strategic desire to strengthen the Afghan 
state and promote Afghanistan's sustainable development.
    At the same time, in order to further encourage the Afghan 
Government to meet agreed goals, the United States announced on July 3 
the establishment of a new $175 million bilateral incentive program to 
encourage progress on the full range of Tokyo reforms. The United 
States plans to set aside up to $75 million in incentive funding 
available this year, and up to an additional $100 million of planned 
funding available next year. The new program will promote Afghan reform 
progress with flexible funding to be used for development projects or 
other needs prioritized by the Afghan Government. But the funds will 
only be available if specific and concrete progress is made toward the 
Tokyo goals, including on elections, anticorruption, and women's 
rights. We look forward to further discussions with the Afghan 
Government on how we can best implement this new incentive program to 
promote the reforms, which we agree are critical to Afghanistan's 
future.
    Over the last year the United States has reoriented its civilian 
assistance programs to better support Afghan needs during the upcoming 
transitions and to maximize sustainability. The revised program being 
put in place now focuses on maintaining the social gains of the last 
decade (focusing on health, education, and women's rights), building 
the civilian capacity of the Afghan Government, and mitigating the 
negative economic impact of troop withdrawal. The new strategy takes 
into account input from the Special Inspector General for Afghan 
Reconstruction and other inspectors general, and will consolidate 
programming along key economic corridors, phase out stabilization 
programs, decrease spending on new infrastructure, and focus on 
building capacity to maintain prior investments. While new spending in 
the infrastructure sector will focus on commercializing existing 
services and building Afghan capacity to maintain and operate existing 
infrastructure, we will continue to support completion of existing 
projects proposed under the Afghanistan Infrastructure Fund (AIF). The 
AIF will not be used to support new projects that would further 
increase the future financial burden on the Afghan Government.The 
Department of State, USAID and DOD are working closely together to 
ensure that Afghan ministries have the necessary capacity and 
authorities to sustainably maintain these investments in the future.
    While our bilateral assistance is an important part of our economic 
relationship, we have also endeavored to promote economic cooperation 
between Afghanistan and its neighbors. We believe that the best way to 
enable the Afghan people to achieve sustained economic progress beyond 
2014 is to enable this increased regional connectivity--to help the 
countries of the region dismantle trade barriers, promote investment, 
and support the development of regional energy, transportation, and 
communications links. This is at the very heart of the New Silk Road 
vision. Our support for the Istanbul Process, in particular, promotes a 
regionally led effort to build trust and regional leadership post-2014.
    My colleague Peter Lavoy will speak in more detail about the 
progress we and our Afghan partners have made in developing the Afghan 
National Security Forces over the past 2 years and what we are doing 
together to ensure continued progress, but I want to highlight a few 
important points on these issues.
    We are in the final stages of transition to Afghan lead for 
security, realizing commitments that we, our allies, and Afghanistan 
made at Lisbon in 2010 and reaffirmed at Chicago last year. On June 18, 
we marked the milestone of transition to full Afghan lead for security 
and ISAF's shift from combat operations to support of the Afghan 
National Security Forces. In concert with reaching the milestone, 
President Karzai announced the fifth and final stage of transition to 
full Afghan lead on security throughout the country, which will begin 
later this summer and put us on track to complete a process begun 2 
years ago. While the Taliban remain capable of staging dramatic 
attacks, Afghan forces are demonstrating their growing capabilities 
during this fighting season, taking on the Taliban across Afghanistan 
even as ISAF forces gradually leave the field. But as our forces pull 
back, we remain committed to ensuring that the ANSF is as strong as it 
can be. We continue to train ANSF units and improve the capacity of the 
security ministries, a mission that will last beyond 2014 as part of 
NATO's longer term train, advise, and assist plans. And as we work with 
the Afghans to build a stronger ANSF, we will also partner with them on 
our post-2014 counterterrorism mission that will prevent al-Qaeda from 
again using Afghanistan as a safe haven.
    While helping the Afghans take responsibility for their own 
security, we are also working to support an Afghan-led reconciliation 
process designed to find a political solution to conflict with the 
Taliban. To that end, in January, President Obama and President Karzai 
called for the establishment of an office in Doha for the purpose of 
enabling negotiations between the Afghan High Peace Council and 
authorized representatives of the Taliban. We appreciate the efforts of 
the Government of Qatar to encourage this process, and the public 
statements of support from the international community, including 
Pakistan and others. We are appreciative of Pakistan's efforts to 
further Afghan-led reconciliation, including Pakistan's call to Taliban 
leaders and insurgents to join talks with the High Peace Council. We 
continue to encourage consultations between the Afghan and Pakistani 
Governments in support of reconciliation efforts.
    Talking peace means talking to your enemy. The first steps are 
always hard, and a final settlement may be a long time coming. Our goal 
remains for Afghans to be talking to Afghans about how they can move 
forward, end the violence, and continue rebuilding their country. From 
the start, we have made clear that, as part of any outcome, the Taliban 
and other insurgent groups must end violence, break ties with 
international terrorism, and accept the Afghan Constitution, including 
its protections for women and minorities. We have also made clear that 
while the United States will try to help facilitate a peace process, 
negotiations about the future of Afghanistan must be Afghan-led and 
Afghan-owned.
    We will continue to work to promote a peace process, but this 
cannot distract from the main priority in the coming year--the 
political transition that will occur when the Afghan people choose a 
new President next April. I cannot stress enough the importance of a 
successful and democratic political transition next year and, as an 
essential part of that, a credible and timely election process that 
reflects the will of the Afghan people. Next April's election will be a 
momentous occasion in Afghanistan's national history. The future 
stability of Afghanistan rests on a peaceful transition of political 
authority from President Karzai to his successor in 2014 through an 
election that Afghans themselves accept as credible. Afghans know that 
inclusive elections are critical to their country's stability, as well 
as to sustaining international commitments to Afghanistan.
    The first steps in the process have already been taken. We urge the 
Afghan Government and Parliament to take the next critical steps and 
pass electoral legislation that provides for appointments of electoral 
officials and an independent complaints process, and for President 
Karzai to sign them into law, as he has promised to do, in order to 
ensure the credibility of the elections processes. A successful and 
unifying political transition based on a transparent, inclusive, free, 
and fair election will reaffirm to the Afghan people and the 
international community that Afghanistan's commitment to democracy, 
peace, and prosperity remains strong and unwavering.
    The Afghans have already taken significant steps to prepare for 
this historic process. The Independent Election Commission (IEC) has 
created a timeline for the elections, designed a public education 
campaign for voters, and developed a comprehensive operational plan to 
combat fraud and expand participation, including of women. Political 
leaders have been meeting to clarify a common understanding of how 
elections should be conducted, who should run and on what platform, and 
how to ensure that influential political factions respect the result. 
It is encouraging that Afghans understand that nothing will strengthen 
Afghanistan more than an election that serves to unify their country. I 
want to reaffirm that the United States will not endorse any single 
party or candidate. However, we along with the international community 
will be paying close attention to the election process as it unfolds. 
We will continue to encourage all political figures to play a positive 
and unifying role, irrespective of their differences, to help ensure a 
transparent, peaceful, and democratic political process that fulfills 
the aspirations of Afghans. The Afghan people deserve nothing less 
given their sacrifices over the past three decades.
    We are providing significant financial and program assistance to 
help Afghans build credible and independent electoral institutions. In 
doing so, we emphasize the importance of expanding voter participation, 
particularly for women, and of ensuring the independence of the 
election commission, as well as the need for an independent complaints 
commission and consultative procedures for selecting commissioners. We 
are engaging intensively with Afghan officials, civil society, and 
political leaders to support their efforts to establish effective 
elections processes. We also are coordinating closely with the U.N. and 
with other donors on training, public information campaigns, fraud 
mitigation, domestic observation efforts, and improved ways to identify 
eligible voters.
    The U.S. Government provided $179 million in assistance for 2009-
2013 for programs focusing on effective voter registration, civic and 
voter education, electoral reform and legislation, and expanding 
political participation. For the 2014 Presidential and provincial 
council elections, USAID plans to contribute an additional $110 
million. Of this amount, about $75 million directly supports the UNDP-
ELECT project working with the two main Afghan electoral bodies, the 
Independent Election Commission (IEC) and the Electoral Complaints 
Commission (ECC). An additional $15-20 million has been budgeted to 
assist civil society actors that are stakeholders in the democratic 
process (e.g., women's groups, media, youth, political party capacity-
building, and election observers). For the 2015 parliamentary election 
USAID is budgeting additional funding for democratic stakeholders that 
has yet to be determined.
    Afghanistan has made impressive progress since 2001. Afghanistan is 
freer and more prosperous, people are better educated, healthier, and 
enjoy much greater economic opportunity. Like any developing country 
emerging from conflict, Afghanistan will require international support 
for some time, but Afghans are determined to stand up. A country that a 
little more than a decade ago provided the haven from which the 9/11 
attacks were planned has become a staunch partner against international 
terrorism. There is much the Afghan people can be proud of, and we can 
be proud to stand at their side, working together to ensure that these 
tremendous accomplishments are not reversed.
    Thank you Mr. Chairman and members of the committee, I look forward 
to your questions.

    The Chairman. Thank you, Ambassador.
    Dr. Lavoy.

STATEMENT OF DR. PETER R. LAVOY, ACTING ASSISTANT SECRETARY OF 
DEFENSE FOR ASIAN AND PACIFIC SECURITY AFFAIRS, U.S. DEPARTMENT 
                   OF DEFENSE, WASHINGTON, DC

    Dr. Lavoy. Chairman Menendez, Ranking Member Corker, and 
members of the committee, thank you for inviting me to discuss 
with you today the present status and future course of our 
military engagement in Afghanistan. It is an honor to be here 
with Ambassador Dobbins to discuss both the significant 
progress we are making and the very real challenges we continue 
to face in the country.
    Our fundamental objectives in Afghanistan have not changed. 
Our goal remains to deny safe havens to al-Qaeda and its 
affiliates and to deny the Taliban the ability to overthrow the 
Afghan Government. Over the past 4 years, due to the 
dedication, hard work, and sacrifices of our forces, our 
coalition partners, and the Afghan security forces and 
population, we have made significant progress in advancing 
those objectives.
    Today the Afghan people have greater economic opportunity 
and greater access to health care, better and more education, 
and more freedoms and individual rights, especially for women, 
than ever before. As committed to in Chicago last year and 
reaffirmed at the Presidential summit this January, the Afghan 
National Security Forces, or ANSF, last month took the lead 
countrywide for providing security to the people of 
Afghanistan.
    This important milestone also signaled a shift in the 
International Security Assistance Forces' primary mission from 
combat to assisting the ANSF. The combat leadership shift from 
ISAF to ANSF demonstrates the capability and resolve of the 
Afghan Army and police to secure their people and their nation. 
It also enables the United States and other ISAF nations to 
continue reducing the presence of their combat forces. The 2013 
security milestone and final tranche of the transition process 
will mark the fulfillment of the pledges our leaders made in 
Lisbon and Chicago.
    The ANSF are being tested this fighting season but are 
performing admirably. Afghan forces now plan and conduct the 
overwhelming majority of combat operations and are also taking 
the vast majority of casualties. However, despite heavy 
fighting, the Afghans are holding the gains of recent years and 
the Taliban must come to grips with the fact that they cannot 
defeat the Afghan National Security Forces militarily.
    The United States is transitioning in Afghanistan, not 
leaving. We are on track to bring the ISAF mission to a close 
by the end of 2014 and transition to Operation Resolute 
Support, a new train, advise, and assist mission under a NATO 
umbrella. Beyond this NATO mission, the United States also 
plans to conduct a narrowly focused counterterrorism mission.
    The United States and Afghanistan are already negotiating a 
bilateral security agreement to provide the necessary framework 
to support the presence of U.S. forces to accomplish these 
missions. NATO is also preparing to negotiate such a framework 
with Afghanistan.
    While the United States has not made a decision on the size 
of the post-2014 military presence, our planning and our 
ultimate United States presence will be guided by a number of 
factors to include: progress toward our core goal of defeating 
al-Qaeda in the region; second, the potential for peace talks 
between the Afghan Government and the Taliban; third, continued 
progress with the ANSF; fourth, Afghanistan's political 
transition centered on the elections in April 2014; fifth, the 
regional setting; and finally, concluding the United States-
Afghanistan bilateral security agreement and the NATO-
Afghanistan status of forces agreement.
    We will keep Congress informed of any post-2014 U.S. 
presence decisions and developments in other areas such as the 
BSA.
    This is a critical time for our shared effort in 
Afghanistan. After more than a decade of war and tremendous 
sacrifices by the people of the United States, our coalition 
partners, and Afghans, we can see the prospect for peace and 
stability in Afghanistan.
    Thank you for your continuing support to the mission in 
Afghanistan and to our men and women in uniform, without which 
none of this would be possible. Thank you and I look forward to 
answering your questions.
    [The prepared statement of Dr. Lavoy follows:]

                Prepared Statement of Dr. Peter R. Lavoy

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for inviting me to testify before you today to 
discuss the present status and future course of our military engagement 
in Afghanistan. It's an honor to be here with Ambassador Dobbins to 
discuss both the progress we are making and the challenges we continue 
to face.
    Our fundamental objectives in Afghanistan have not changed. Our 
goal remains to deny safe havens to al-Qaeda and its affiliates and to 
deny the Taliban the ability to overthrow the Afghan Government. Over 
the past 4 years, due to the dedication and sacrifice of our forces, 
our coalition partners, and the Afghan security forces and people, we 
have made significant progress in advancing those objectives.
    Today, the Afghan people have greater economic opportunity, greater 
access to health care, better and more education and more freedoms and 
individual rights, especially for women, than ever before. As committed 
to in Chicago last year and reaffirmed at the Presidential summit this 
January, the Afghan National Security Forces (ANSF) last month took the 
lead countrywide for providing security for the people of Afghanistan.
    This important milestone also signaled a shift in the International 
Security Assistance Force's primary mission from combat to assisting 
the ANSF. The combat leadership shift from ISAF to the ANSF 
demonstrates the capability and resolve of the Afghan army and police 
to secure their people and their nation. It also enables the United 
States and other ISAF nations to continue reducing the presence of 
their combat forces. The 2013 security milestone and final tranche of 
the transition process will mark the fulfillment of the pledges our 
leaders made in Lisbon and Chicago.
    The ANSF are being tested this fighting season, but are performing 
admirably. Afghan forces now plan and conduct the overwhelming majority 
of combat operations and are also taking the vast majority of 
casualties. However, despite heavy fighting, the Afghans are holding 
the gains of recent years and the Taliban must come to grips with the 
fact that they cannot defeat the ANSF militarily.
    The United States is transitioning in Afghanistan, not leaving. We 
are on track to bring the ISAF mission to a close by the end of 2014, 
and transition to Operation RESOLUTE SUPPORT, a new train, advise, and 
assist mission under a NATO umbrella. Beyond this NATO mission, the 
United States also plans to conduct a narrowly focused counterterrorism 
mission.
    The United States and Afghanistan are already negotiating on a 
Bilateral Security Agreement (BSA) to provide the necessary framework 
to support the presence of U.S. forces to accomplish these missions. 
NATO is also preparing to negotiate such a framework with Afghanistan.
    While the United States has not made a decision on the size of the 
post-2014 military presence, our planning and our ultimate U.S. 
presence will be guided by a number of factors, to include:

  <bullet> Progress toward our core goal of defeating al-Qaeda in the 
        region;
  <bullet> The potential for peace talks between the Afghan Government 
        and the Taliban;
  <bullet> Continued progress with the ANSF;
  <bullet> Afghan political transition, centered on the elections in 
        April 2014;
  <bullet> The regional setting; and
  <bullet> Concluding the U.S.-Afghanistan Bilateral Security Agreement 
        and the NATO- Afghanistan Status of Forces Agreement.

    We will keep Congress informed of any post-2014 U.S. presence 
decisions and developments in other areas such as the Bilateral 
Security Agreement.
    This is a critical time for our shared effort in Afghanistan. After 
more than a decade of war, and tremendous sacrifices by the people of 
the United States, our coalition partners, and Afghanistan, we can see 
the prospect for peace and stability in Afghanistan.
    Thank you for your continuing support to the mission in Afghanistan 
and our men and women in uniform, without which none of this would be 
possible. I look forward to answering your questions.

    The Chairman. Well, thank you both for your testimony.
    There is a lot of ground to cover here, so let me start.
    Ambassador Dobbins, we seem to have spent, from my 
perspective, an enormous amount of time on this reconciliation 
effort. I am not sure that the Taliban, looking at the Karzai 
government leaving next year, looking at the reduction of 
international forces, really believes that it is the right 
negotiating moment for them.
    But the one thing that is very important from my 
perspective is the elections. And I am trying to understand. We 
hear very little about our efforts with the elections. We have 
a witness from our second panel who flew in from Afghanistan, 
for which we are very grateful, Mr. Ahmad Nader Nadery of the 
Fair and Free Elections Foundation of Afghanistan. I was 
reading his testimony. He has a series of items that are 
critical toward elections that are ultimately fair, 
transparent, and for which there can be confidence of the 
Afghan people as we move forward, which in the longer term 
process is going to be a critical part of any reconciliation 
effort that, as you described, is led by the Afghans at the end 
of the day.
    What are we doing to ensure these elections are taking 
place in a successful way? In 2009, we appointed a senior 
official to coordinate support for the elections at the Embassy 
in Kabul to signify how important a priority this was for the 
United States. Why do we not do this again?
    Ambassador Dobbins. Thank you, Mr. Chairman.
    Well, on the reconciliation issue, I mean, we are 
determined to move forward on this in lockstep with the 
Government of Afghanistan. The objective here is not for us to 
negotiate peace in Afghanistan. The objective is for us to 
promote an Afghan process, a process between the insurgency and 
the government and the high peace council of government is 
formed to address these issues. We do not expect it to progress 
quickly. We are not sure it will start at all over the next 
year. And we are certainly not going to let it distract us from 
these other priorities, as you correctly suggest.
    On elections, the United States, through both State and AID 
financing, is joining a large-scale international effort to 
fund both the election process in terms of the machinery and 
also the ``get out the vote'' type education process that can 
assist in ensuring that this is a satisfactory election.
    I will take aboard the suggestion that somebody at a 
significantly senior level be appointed specifically for this 
in the Embassy. That may be helpful. I am sure the Embassy is 
devoting a great deal of attention to it.
    The Chairman. I do not want to get all the time on the--I 
know the facts, and I know that we have moneys ascribed.
    My problem is I do not get the sense that in our focus in 
Afghanistan that one of our critical focuses is getting the 
Afghan Government to make the appointments to the Election 
Commission, to make the other appointments to the Supreme 
Court, to create the structure that all the money in the world 
bringing out to vote will not guarantee unless we have a 
structure at the end of the day that can have disputes settled 
in a fair, honest, transparent way.
    And so are we engaging through our Embassy there, through 
the State Department, through your own representation with 
President Karzai to make it crystal clear that it is very 
important to make these appointments, that we will look at this 
as part of our overall assistance? Because from my perspective, 
if we do not have elections that are fair and transparent, we 
are going to have a huge challenge in addition to the security 
question ahead. And I think we have lost sight of that as a 
major part of what we should be doing.
    Ambassador Dobbins. I agree with you entirely.
    The Chairman. Well, that is not good news. If you agree 
with me entirely that we have lost sight of it, that is not 
good news. The question is, How do we change the course here 
because we are talking about April of next year? That is months 
away.
    Ambassador Dobbins. I agree with you entirely on the 
importance, indeed, the priority that is given to this. In 
fact, I think every time I have spoken to any audience on 
Afghanistan, I have made clear that among all of the major 
transitions that are taking place, this is the most critical 
one.
    There are two pieces of legislation that are the critical 
inputs to creating the Electoral Commission and a Complaints 
Commission that are currently in their Parliament. They are 
moving through their Parliament. They have passed Houses. They 
are in the process of negotiation between the two Houses. As 
you know, legislative processes are not subject to, you know, 
light switch type influence, but the President has said that he 
will keep the Parliament in session through Ramadan, if 
necessary, in order to get this legislation out, and he has 
promised me and he has promised everybody else who has visited, 
probably Senator Corker, too, when he saw him. He has promised 
to sign this legislation as soon as it is out.
    The Chairman. Well, I think there are appointments to be 
made. Those appointments are executive powers. We need to see 
those appointments made. It is not about a legislative process 
at the end of the day. So I think there are very clear 
benchmarks here that we are not reaching that ultimately are 
going to provide a problem for us next April. And I hope that I 
am wrong, but what we need is a fair and open, transparent 
election that all parties in Afghanistan can ultimately believe 
that their future is dictated by an honest election. And if we 
do not get that, then everything else we are talking about is 
going to fall apart.
    Let me ask Dr. Lavoy. Today the Washington Post in an 
article says the Afghan army struggles with lack of reach, and 
it talks about a realization by many commanders that, ``part of 
Afghanistan will probably remain in the enemy's hands.'' And it 
talks about the challenges of that Afghan army.
    Now, after spending a small fortune in trying to build this 
army, what are our abilities to help them move in a direction--
I have heard all the testimony. I honor their leading the fight 
and losing lives. But I am looking at what this article and 
other information suggests, and it seems to me that there are 
critical gaps here that even the most courageous soldiers in 
the Afghan army and their commanders are going to face moving 
forward. Are we looking at how we deal in a support role to 
helping the Afghans be able to achieve their own security?
    Dr. Lavoy. Thank you for that question, Chairman. It is a 
very important issue.
    I think the story of the Afghan National Security Forces is 
really one of success and really a remarkable success. If you 
look back 5 or 6 years ago, there were only 70,000 Afghan 
National Security Forces. Today there is an authorized ceiling 
of 352,000 forces and an actual amount of somewhere over 
340,000. Not only the quantitative change but the qualitative 
change of this capability, the army and the police, has been 
amazing. These forces are now, as I said in my prepared 
remarks, out there leading combat operations throughout the 
country. They are encountering a lot of resistance. They are 
taking a lot of casualties, but they are standing up to that 
resistance. They are an increasingly professional force that is 
getting the job done and doing a better job each and every day.
    You asked, specifically, are there gaps. Yes, there are 
gaps. Today the Afghan National Army and the police are not 
totally self-sustainable entities capable of doing everything. 
We are providing critical support and assistance to them. ISAF 
is. That enables them to do the jobs. But I think one of the 
most remarkable features in the last 2 years is the ability for 
the army and the police to do more and more of the job 
themselves. They are increasingly planning operations 
themselves. They are pulling in intelligence, identifying where 
adversaries are, identifying threats to populations, and they 
are going after those threats successfully. They are clearing 
routes. They are providing for their own enabling capabilities.
    Where we find the biggest gaps today is really at the 
ministerial level, at the Ministry of Defense, the Ministry of 
the Interior where they need critical, basically, support to 
the army and the police that are out there operating. They need 
a human capital strategy. They need to manage contracts, 
payrolls, food, fuel, other logistics, planning, intelligence, 
surveillance, reconnaissance, et cetera. So as the Afghan army 
and police are increasingly capable operationally in getting 
the job done, the focus of our assistance is shifting now to 
higher echelons and to support that supportive structure.
    Now, you specifically asked, Are they capable of getting 
out to the parts of the country where that is threatened by the 
insurgency? Afghanistan, as you know, sir--and all of you have 
been to Afghanistan--is a difficult country to get around. The 
communication network is not very well established. It is a 
mountainous country. It is hard to access different places. So 
that is a challenge for any military force inside Afghanistan 
to access the remote parts of that country. And that is the 
challenge that the army and the police will continue to face. 
We are working with them to improve their mobility so they can 
get out there, but that will be an enduring challenge that they 
will face.
    The Chairman. I have followup questions, but I will wait 
for a second round.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. I very much 
appreciate your line of questioning.
    Let me say to the witnesses again I do appreciate your 
public service. I know that the leader of Afghanistan is a very 
frustrating individual, and I will say this and you do not have 
to agree. I know it is also frustrating trying to solve a 
problem when we have an administration that has such difficulty 
making a decision and providing clarity. So I know that you 
guys are whipsawed. I hope that you can help the administration 
soon have some clarity and make a decision. But I thank you for 
your work.
    Mr. Chairman, you mentioned the election. And I did sit 
down with the chief election officer there, Mr. Amarkhil, I 
believe, and I know you have worked with him. And I just want 
to ask the witnesses, Is there any question that as people 
begin to hedge their bets because they do not yet know what our 
force structure is going to be and what kind of commitments we 
and NATO are going to make--is there any question that the 
hedging that is taking place, the capital outflows that are 
occurring works against U.S. interest at present?
    Ambassador Dobbins. I think it is important to reassure 
Afghans that we are going to be committed to that long-term 
security, stability, and prosperity. And I think to be fair, we 
have gone a long way in doing that.
    I take your point that more certainty on force levels would 
be helpful. That is a decision that is still 18 months away, 
and we will probably know a lot more about what is actually 
necessary once we get through this fighting season with the 
Afghans in the lead and we will know what they need and what 
they do not need. But I take your point. I think it is 
certainly a valid argument.
    On the election process, just to go back to the chairman's 
question, I mean, this is something that the President has 
raised repeatedly with Karzai, including during his visit in 
January and since. It is something that the Secretary raised 
when he was last in Kabul. It is the only meeting he had 
outside of meetings with the government was on this topic. And 
it was the main issue at the recent donors conference that took 
place in Kabul where they went through the various Afghan 
performance and commitments, and the major emphasis in those 
discussions was on the importance of meeting the election 
targets to long-term assistance to the country.
    Senator Corker. So the chairman has asked you a question 
and you have pointed out that we really have not formalized a 
structure to help make that happen. I sat down with several of 
the people that may well run for President, and they are very 
concerned about the fact that we are not doing the things yet 
that we need to do to ensure that there is a free and fair 
election. I agree with the chairman. If that does not exist or 
at least by some standard, which may be a little different than 
we have here, I think it is going to be the greatest 
destabilizing thing that can possibly occur.
    Let me just ask you another question relative to the 
elections. Is people's perception about security within the 
country an important factor as to whether we are going to have 
a good election process?
    Ambassador Dobbins. It will certainly be a factor in areas 
with heightened insecurity, and indeed, there are some areas 
where it may become difficult to vote. At the moment, the 
responsible Afghan officials are pretty confident that they can 
maintain adequate security throughout the vast majority of the 
country to permit the election to go forward. So the answer, of 
course, is yes, it is a factor.
    I have not seen the latest statistics but by and large the 
Afghans, while they continue to be concerned about security, 
also continue to regard it as having improved in almost all of 
the country almost all of the time, which is encouraging. And 
they also have remarkably high confidence in the quality and 
capabilities of their own armed forces. But I think you are 
again, I think, making the point that we need to assure them 
that our commitment to Afghanistan's development and security 
is an enduring one.
    Senator Corker. So if they take the risk of getting out and 
getting involved in elections and they are not sure what our 
commitments are--of course, I hope they will know by that time. 
So I guess in many ways that issue hopefully will be decided by 
the administration.
    Let me move on to another issue. The chairman mentioned a 
story that he read this morning about the capability of the 
Afghan forces. I think all of you and everybody here that has 
looked at the charts realizes that the Afghans are the ones 
taking most of the casualties today. They are the ones that are 
out in front. But there is a debate within the administration 
right now about force levels.
    And I would like for Mr. Lavoy, if he would, to speak to 
this. I guess there is a corps in Kabul and then six corps 
scattered around the country that are part of the Afghan 
military. And one of the great factors that NATO--one of the 
great assets that NATO represents to the Afghans right now is 
the role of enabling them. In other words, we are able to cause 
them to be far more effective if we have the ability to be 
involved in all seven of those corps. And yet, for some reason 
right now, it appears the administration is actually 
considering not providing the very few thousand, maybe not even 
that many, folks that would enable that to occur and for the 
country to actually have much greater security. This is an 
option for the administration, a decision for some reason, 
despite all that Americans have done over the last 11 years.
    Mr. Lavoy, I would like for you to speak to the importance 
of our NATO force structure being such that we have the ability 
to actually have people out scattered around the country 
enabling the Afghans to secure their own country.
    Dr. Lavoy. That is a very important issue, Ranking Member 
Corker.
    Today, as I indicated earlier, the Afghan National Army and 
police are capable of performing operations on their own, but 
we do continue to provide, assist, and support to them to 
improve their effectiveness. Our desire, our objective is by 
2015 for the Afghans to have all of the capabilities to be 
largely self-sufficient in all aspects of security. So planning 
operations, conducting the operations, withdrawing from 
operations successfully, doing medevac, doing all the other 
critical tasks.
    So we are working very hard now to help them adopt and 
integrate those enabling capabilities inside the army and 
police structure today. That is a big challenge, as I 
indicated. Just 6 years ago, there were only 70,000 ANSF. Today 
it is a much bigger army, as you indicated, corps spread 
throughout the country, and the police also have seen 
commensurate growth and in adopting new qualitative aspects to 
perform all aspects of their missions.
    So this is an ongoing process, and I would agree with you 
that the coalition is providing absolutely essential support 
for the ANSF to become more sustainable and ultimately a more 
self-sufficient force.
    Senator Corker. And if we were to try to, for some reason 
that would be unknown to me after all that has happened--if we 
were to try to just shave a little bit for some reason, the 
risk factors geometrically grow. Do they not?
    Dr. Lavoy. Well, sir, I think as I indicated, the 
administration has a process in place where we will be doing 
periodic reviews of the performance of the ANSF and of other 
indicators that I indicated, the political transition and other 
factors that are critically important. So we will be assessing 
how well the ANSF perform over the course of this fighting 
season. And this is the first year that the ANSF are actually 
in the lead in combat, this fighting season. And we will make 
assessments and the necessary adjustments so that they have the 
capacity and the enabling capability to continue to perform 
admirably and provide that security for the population.
    Senator Corker. Mr. Chairman, I very much appreciate this 
timely hearing. I actually think it is very timely. I think 
decisions hopefully--hopefully--will be made soon. I do think 
the lack of clarity is almost embarrassing and I think hurting 
our effort.
    I want to thank the witnesses for being here. I know that 
you all are public servants that are very respected. I thank 
you for giving us an opportunity to share our frustrations 
publicly. I want to assure you I have done it privately also. 
So thank you, and I look forward to hopefully a good outcome.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Well, thank you very much, Mr. Chairman, 
and let me thank both of our witnesses not only for being here 
but for your service to our country.
    I want to follow up on some of the questions that have been 
asked. I certainly share the concern about clarity and 
transparency with the Congress as we move forward on the 
removal of our combat troops from Afghanistan.
    The election issues are very important. Good governance is 
important. Over these years, many of us have expressed concern, 
frustration about the corruption of the Afghan Government. We 
have seen over and over again countries' stability challenged 
and overthrown as a result of corrupt regimes.
    What steps are we taking, in addition to the election 
process, to improve the governance in Afghanistan so that there 
is confidence among the people of Afghanistan that they are 
being treated fairly, which in turn gives us a much better 
chance for a stable regime? In a way, the United States has 
contributed to some of that corruption by the manner in which 
aid has been made available. What are we doing? Can you assure 
us that the way that we are proceeding will reduce the 
corruption within the Afghan Government so that we can have 
better governance as the United States transitions to the next 
stage in Afghanistan?
    Ambassador Dobbins. Well, we share your concern, Senator, 
about corruption, and it is a major focus of not only our 
efforts but the international community's efforts as a whole 
both to police ourselves, in terms of the degree to which our 
assistance efforts can be misused and to strengthen the 
government.
    I think we have to recognize, first of all, that 
Afghanistan is in Central Asia, and so when we talk about 
levels of corruption, we need to look at Uzbekistan and 
Turkmenistan. We need to note that Afghanistan has a more 
efficient tax collection system than Pakistan, only marginally 
so, and it puts it in a little bit of perspective.
    Senator Cardin. So some of your comparisons are not exactly 
the best countries that we like to----
    Ambassador Dobbins. No, they are the worst.
    Senator Cardin [continuing]. Look at as model examples of 
good governance.
    Ambassador Dobbins. No. Exactly. They are the worst. But 
that is the neighborhood that Afghanistan is in. And 
Afghanistan was, first of all, the poorest of all those 
countries to start with, and it had no government at all.
    Senator Cardin. But the United States has been actively 
engaged in the country now for 11 years.
    Ambassador Dobbins. I agree with that.
    Senator Cardin. So, you know, we should be able to have 
some impact on what legacy we leave to the people of 
Afghanistan.
    Ambassador Dobbins. I agree entirely with you. And this is 
a problem on which we need to continue to work in terms of our 
own efforts. About 10 percent of our total civilian strength in 
Afghanistan is dedicated to oversight and accountability of our 
own programs. In terms of the effectiveness of our aid 
programs, in my opening statement I think I mentioned that if 
you look at outcomes, if you look at levels of literacy, levels 
of longevity, the projection of health care, education, the 
Afghan Government is actually providing services which have 
historically never been provided before in Afghanistan to the 
population, certainly not at current levels.
    So despite the corruption, despite having had no government 
at all 10 years ago when I last held this position or 12 years 
ago, rather, when I last held this position, you have a 
government that is performing by regional standards not very 
badly and by standards compared to other conflict and post-
conflict societies, among the best in terms of actually 
delivering services and producing outcomes that improve the 
lives of the population.
    Now, that does not mean that you are not absolutely right 
to keep harping on corruption and keep insisting that we do 
more about it.
    Senator Cardin. For the Afghan people to have a reasonable 
chance for a stable government--Senator Corker is right--they 
have to have a secure country. The military issues are very, 
very important. Governance is extremely important and the 
corruption issue I would point out I think we have not taken 
aggressive enough steps during these years to give a better 
opportunity for good governance. And finally, economic 
opportunity--the removal of the international military presence 
is going to have a major impact on the economy of Afghanistan.
    What steps are being taken in order to provide economic 
opportunity for the people of Afghanistan as we transition to 
the elimination of American combat troops?
    Ambassador Dobbins. Well, I think there is no doubt that 
the 
reductions in the NATO military presence there is going to have 
some impact on the economy. I think the latest World Bank 
assessment was that it would lead to not a negative growth but 
a significant drop in positive growth. It is important that the 
nonmilitary assistance flows continue beyond the departure date 
for most U.S. troops, and I think that is one answer to your 
question.
    There is no doubt that the Afghan economy has undergone 
considerable growth over the last decade. Indeed, I think the 
increase in GDP on a per capita basis is about 130 percent over 
that period, which is pretty substantial. Afghanistan has been 
growing at a rate comparable to China for most of the period we 
have been there, and that is probably not going to continue. 
You are going to see some diminution in that growth, and it 
will be important for our assistance and other forms of 
international assistance to continue to flow in the post-2014 
period.
    Senator Cardin. Mr. Chairman, I agree with Senator Corker 
in regards to the need for the military security of 
Afghanistan. I think I may come at it from a different 
perspective as to the need for American troops to be there. But 
I think every member of this committee wants to see more 
clarity on how the decisions are being made on troop levels as 
we go into this critical year. So I would just urge the 
continued openness to this committee as those decisions are 
being made. Americans expect Afghanistan to take responsibility 
for its own country, and I think we need to know what continued 
commitments are being made on behalf of America.
    The Chairman. Thank you, Senator Cardin.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    First of all, I want to associate myself with the remarks 
of both Senator Corker and Senator Cardin regarding the clarity 
issue on those decisions. I think it is critical not only for 
Congress but for the American people to have a much, much 
better understanding, higher level of understanding than we do.
    Having said that, those of us on this side have an 
important meeting at 11 o'clock this morning, and I was just 
called yesterday, which is unfortunate because this is a 
critically important issue. We will obviously be watching the 
transcript of this as we go forward. I was hoping to hear at 
least part of panel two, but that is not going to be possible. 
But in any event, I am going to yield back my time, again with 
the thanks for holding this hearing, and we will review the 
transcript after we are done.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman, and I welcome you, 
Mr. Ambassador, and Doctor, thank you for your public service.
    I wanted to start by way of reiteration, harkening back to 
what the chairman said about the elections and what happened in 
our committee as it relates to the resolution which has now 
been passed by unanimous consent in the Senate that you 
reconsider the position the administration took with regard to 
dedicating an ambassadorial level person to monitor the 
elections and to make a much greater commitment because I 
believe that if we do not have that kind of oversight or 
involvement as it relates to the Afghan elections, our strategy 
will be adversely impacted. So I will just make that point and 
we can develop it further later.
    I wanted to start, though, with a question as it relates to 
women and girls in Afghanistan. We have had, over the last 
decade or so, tremendous progress in the number of girls going 
to school, literally millions now that were not going to school 
before, a lot more participation by women in the political 
process, even more involvement of women in the Afghan security 
forces.
    Unfortunately, though, we have at the same time a great 
concern. We know that just recently in Helmand, Lt. Islam Bibi 
was assassinated. She joined the police force 9 years ago when 
it was particularly risky to do so. That is a grave 
understatement. So we have had progress in some areas but 
setbacks. An overarching concern is that when we draw down 
completely, when our forces are out, when our focus is 
elsewhere, that Afghanistan will go back to the old ways where 
women are not just marginalized but really targeted for 
discrimination and abuse and no effort or little effort will be 
undertaken to either maintain the gains or to advance in the 
direction of more political participation and more involvement 
of women in the Afghan National Security Forces.
    So because of that concern, I had introduced and got passed 
an amendment to the Defense Authorization Act which requires 
both of your Departments, State and Defense, to report on 
efforts to improve both the recruitment of women, as well as 
the retention of women, in the Afghan security forces. In 
addition to that, the report has to speak to efforts made to 
train male security personnel on gender sensitivity.
    So I would ask you a two-part question. It is really for 
both of you. Number one is, How do you assess progress on both 
of those measures? And number two, When will the report be 
submitted?
    Ambassador Dobbins. Well, let me just say a general word 
and then turn to Peter on the more specific.
    We share your priority on the role of women. We agree that 
there has been remarkable progress particularly when you are 
changing the social mores of an entire society. The role of 
women and women's equality is a problem in societies that are 
far more developed than Afghanistan. And so I think that we can 
take some satisfaction to the degree that it has been made. 
There is danger of rollback, and it is one of the reasons why a 
continued American commitment, once we withdraw from combat 
operations, is going to continue to be important.
    Let me turn to Peter on the more specific question.
    Dr. Lavoy. Thanks, Jim.
    Yes, let me also speak to your general issue. The role of 
women in the armed forces is a priority for us. What is a very 
positive development to observe for the leadership of the 
military, for the leadership of the army and the police, 
incorporating more women, giving them more responsibility, and 
treating them with the same dignity and respect as other 
soldiers and police is a priority for that leadership now. They 
are incorporating these norms and values in the leadership. So 
I do believe this will be sustainable going forward.
    And the statistics I think are impressive. I have here that 
the Afghan Army--there are now over 400 women in the army, and 
that is very significant from zero. The Afghan police--there 
are over 1,500 women now serving in the police. And in 
Afghanistan's very small air force, there are 44 women now 
serving in this.
    So I think that the strides have been made to have these 
women in there. And I have met a number of these women in 
Afghanistan. They are some of the most patriotic professional 
people in the entire country, and I think that experience is 
showing people that come from a different mindset, a different 
cultural background that the role of women should be here to 
stay in Afghanistan and it is important for Afghans to 
recognize that. And I believe this is taking place. And I think 
it is your support and others' that have pushed us in this 
direction, the right direction, and it is working.
    Sir, you asked about this particular report. I can tell you 
right now that we are incorporating all the information that 
you have asked for in the broader 1230 report on Afghan 
National Security Forces, and I believe we have information 
coming up to you very quickly on when this will be handed over 
to you. But my understanding is that it will be coming up very, 
very soon. But we are attentive to it, sir.
    Senator Casey. Are we talking days or weeks?
    Dr. Lavoy. It will be by the end of this month.
    Senator Casey. Thank you very much. I appreciate that 
because like any society, we will measure the progress in 
Afghanistan, especially after we are disengaged, by one of 
several measures. This will be one of them, women's 
participation. It is extraordinary, as you know and as people 
in the audience know that have had some interaction with women 
in Afghanistan directly.
    I had an opportunity back in 2011 to sit with women, 
parliamentarians, people involved in the political process. One 
in particular, both her father and her husband were killed 
because of their political participation. Despite that horror, 
she still went forward and ran for office and stayed involved. 
So both on the political front and on the security front, it is 
vitally important.
    I am running low on time, but I will submit a question for 
the record as well on the NRC Southwest, the $34 million 
building, which I know has been raised as a taxpayer issue and 
a taxpayer concern about waste. And I will submit one for the 
record about the Pentagon's commitment on making sure that no 
more money is wasted on that kind of a structure. But I know we 
are out of time.
    But thank you very much.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman. Thank you for your 
focus on this issue and for this hearing. Thank you to both of 
you for being here today.
    I recently returned from my fourth trip to Afghanistan, and 
I guess I came back with sort of three top-level takeaways.
    One, to agree in part with your assessment of our ability 
to stand up the Afghan military. They have clearly made 
significant gains. They certainly are able to fight on their 
own in many parts of the country. I am not necessarily sure I 
would share the same optimism or put them in the same boat as 
the status of the police forces, but the military certainly 
shows a lot of progress.
    On the negative side two sort of connected takeaways, one 
was a pretty surprising amount of diversity of opinion on 
behalf of U.S. personnel there as to what is going to happen 
once we significantly draw down and, second, the opinion that 
comes from the Taliban that they are winning the fight there 
today, that they are very optimistic about their ability to 
take some significant control of portions of the country once 
we leave. And as I was there right at the beginning of the 
spring fighting season, there was a lot of talk about this 
being a very decisive moment in terms of that impression on the 
ground amongst the Taliban and many Afghan civilians that the 
Taliban is doing very well.
    So I guess, Ambassador Dobbins, I will just ask you this. 
What do we know so far about the spring fighting season? What 
do we know about the optimism of the Taliban? How has the 
military performed? I mean, it seems like we say every single 
year this is going to be a critical fighting season, but this 
one certainly seems to be true. What do we know so far?
    Ambassador Dobbins. Well, I think Peter, I am sure, will 
want to comment on this as well.
    The Afghan forces are definitely in the lead. They are 
taking, by far, the majority of casualties, and in our judgment 
they are holding up well. But they are under significant 
pressure. Clearly the insurgents are making every effort to 
knock them off balance and to undermine their self-confidence 
as they step out on their own.
    In terms of the Taliban, our impression is that there is 
something of a debate within the movement between those who see 
the military route as the only route forward and are confident 
of their ability to ultimately prevail and those who have a 
broader recognition of the changes that have taken place in 
Afghan society, the unwillingness of the population to return 
to the conditions they were in a decade ago, and the 
recognition that if the Taliban were to win a military victory, 
the health clinics would close, the schools would close, the 
cell phone towers would close, the roads would get potholed, 
the TV stations would go off the air, they would be getting no 
assistance, they would be recognized by no country in the 
world. And even if they were successful militarily, they could 
not govern that country for any length of time. And that is the 
element that is arguing that they need to negotiate as well as 
fight. I do not know that there are any of them who just think 
they should negotiate, but there are those who think they 
should justify it and those who think they should do both. So 
that is the kind of division that we have seen so far.
    But, Peter?
    Dr. Lavoy. Yes, thank you, Senator Murphy.
    As you witnessed yourself, the Afghan security forces are 
doing a good job, and I think they are confident that they can 
achieve their mission. They are taking a lot of casualties. I 
think it is somewhere close to 400 killed in action every month 
total between army and police. So the insurgents are going 
after them. But this poses a threat, a threat to their 
individual security, but operationally they have performed very 
well and they continue to hold and secure the major population 
centers in Afghanistan and the key routes of communication 
throughout the entire country. So strategically the mission 
seems to continue to be successful with the security forces in 
the lead.
    But you are right. There are a lot of questions about the 
future and whether you talk to Americans or especially you talk 
to Afghanistans there will be questions and uncertainties about 
what happens in the future. Afghanistan will be going through 
an unprecedented election where Hamid Karzai is not running. 
The outcome of this election is not clear to anyone, and we are 
doing, as Ambassador Dobbins indicated, everything we can to 
ensure a successful, fair, and free and representative 
election. But there is uncertainty.
    In the security sector in particular where you have good 
governance in the country, the security problem tends to be 
easily manageable by the Afghan Army and police. Where you have 
poor governance, where you have a district or provincial 
governors that are not addressing the grievances and needs of 
the population, the security problem is more pronounced and it 
is more difficult for the army and the police.
    So it gets to the point that I think the entire committee 
is making and we hear very loudly that improvements in the 
political transition need to go hand in hand with the ongoing 
improvements in the security transition.
    Senator Murphy. Dr. Lavoy, let me ask you a specific 
question about the capabilities that we will need to continue 
to lend to the Afghan military, and that is with respect to the 
air capabilities of the Afghan military. It is very frustrating 
10 years in to still see the status of the Afghan Air Force. We 
are contemplating sending to them a bunch of Russian 
helicopters that there are legitimate questions as to whether 
they can even operate. As we take a look at what kind of 
support we are going to need to provide them in the long run, 
it seems hard to believe that we are going to be able to walk 
away from providing them with medevac support or with close air 
support as the ground forces, which clearly have made progress, 
are out there doing the majority of the fighting. I walked away 
not completely understanding how we were not going to have a 
long-term military commitment above the ground.
    Can you just talk to us a little bit about that?
    Dr. Lavoy. Well, I think you are right, Senator. With the 
terrain in Afghanistan and the difficulty to access remote 
regions, air mobility is a critical asset. The Afghans 
recognize this. The Minister of Defense, Minister of Interior--
they are looking to have their own air mobility, their own air 
force capability. And we are working with them to provide that 
capability.
    We have gone from the security transition that is taking 
place--in the past, we would perform all the air operations for 
the Afghans and they would perform increasingly sophisticated 
ground operations. We are now moving in this transition phase 
where they are beginning to do more of the air operations 
themselves, and we are trying to work with them so that they 
will have this sustainable, self-sufficient air capability in 
the future.
    It is not clear to us like it is not clear to you, sir, how 
long it will take for them to develop that capability. Training 
pilots is a laborious process, but it is something that we are 
prioritizing right now and also getting them the equipment and 
helping them develop the means to maintain this equipment in a 
sustainable manner.
    As I indicated at the outset of my remarks, sir, the 
administration is conducting regular assessments of the 
performance of the Afghan security forces, including the air 
force. So we will make the necessary adjustments to ensure that 
they can have this capability going forward.
    Senator Murphy. Thank you very much, Mr. Chairman.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And to our witnesses, I was in Afghanistan last week with 
five others--actually seven other Senators and had robust 
discussions about the sort of midpoint in the fighting season 
and there was some positive news I think in terms of our own 
military leadership's reckoning of the performance, even 
including the scale-up of some air capacity. More to tell.
    Much of the discussion that we had was about this troop 
number. We all recognize the troop number is not an end. It is 
a means to an end. And so what is the end we are trying to 
reach for the ability to train, assist, advise in an 
appropriate way, the ability to provide some CT efficacy, and 
we talked about that.
    There has been public testimony before the SASC hearing, 
where I sit, from General Mattis in February recommending a 
troop level of about 13,600. General Dempsey in April publicly 
talked about a total force of between 8,000 and 12,000. I am 
not going to ask you about numbers, but I will say what we 
heard from military leadership in Afghanistan was not at odds 
at all with that general range.
    I wanted to ask you a question, and I realize that one of 
the next witnesses, Stephen Hadley, actually phrased it better 
than I did. So I am just going to read a section and try to get 
you to tell me whether or not you agree with it. And if I could 
just hand the witnesses Stephen's testimony. It is on page 2, 
and I just want to read this into the record.
    ``The unfortunate recent press accounts of a `zero 
option'--even if ultimately disavowed--are extremely damaging 
in this regard. The United States and its allies need to be 
actively countering the narrative of abandonment that is 
frequently heard in Afghanistan. The best way to do this would 
be for the U.S. Government to make clear as soon as possible 
its intention to have a robust troop presence in Afghanistan 
well beyond 2014 and to announce the size of that troop 
deployment now even before negotiations have concluded on the 
Bilateral Security Agreement that will provide the legal 
framework for this troop presence. The U.S. Government should 
be clear that it is ready to negotiate an acceptable BSA with 
the current Afghan Government or, if necessary, to leave that 
negotiation to the post-2014 government. But the U.S. troop 
commitment needs to be made clearly and it needs to be made 
now. This will do three things:
    ``One, it will reassure Afghans that their votes in the 
2014 election will count for something because the government 
they elect will have the international support it will need to 
succeed.
    ``Two, it will encourage candidates to come forward to 
stand for election.
    ``And three, it will lessen the ability of some Afghan 
elements to use the BSA negotiations as a political football in 
service of other agendas.''
    In your best independent professional judgment, do you 
think the prompt announcement of the size of that security 
force, leaving the size of it for military and the 
administration to determine, would have the positive effects 
that I referenced from Stephen Hadley's testimony?
    Ambassador Dobbins. Well, let me say a couple of things.
    First, the best that I can determine--and I have spent some 
time trying to determine it--the leak to the New York Times 
about the zero option and what prompted the story was not 
intended. It was not a negotiating ploy.
    Secondly, I agree that the article was, on balance, 
unhelpful, and the focus on this issue unhelpful.
    I have already addressed, I think, the issue of the timing 
of a decision on troop levels. But I will say that if you agree 
with Steve Hadley that both your views and those of former 
National Security Advisor Hadley are important and will 
certainly be taken into consideration.
    Senator Kaine. Dr. Lavoy.
    Dr. Lavoy. Yes, Senator. Well, first of all, I take 
everything that Steve Hadley says very seriously. I mean, he is 
very, very thoughtful, and I think even in this regard as well, 
that this does deserve really our fullest attention and we need 
to consider what he is saying. And I look forward to his 
testimony afterward.
    I think right now, as I said, the Afghans are uncertain 
about their future. Any statement of commitment of U.S. or 
international support I think can mitigate some of that 
uncertainty. But we need to recognize the uncertainty will be 
there. Afghanistan is going through a democratic transition 
that is really unprecedented in that country. Similarly in 
Pakistan, the first-ever civilian government to be elected 
after another government serving a full term. So the democratic 
impulse is very, very strong, and we need to do everything we 
can to support that and to provide the confidence that tomorrow 
will be better than today, better than yesterday in Afghanistan 
and in Pakistan as well.
    We are, as you indicated, in negotiations with the Afghan 
Government on the bilateral security agreement, which will be 
the framework that will enable us to have a military presence 
going forward. The negotiations have been rather successful. We 
have come to agreement on many, many things and parameters for 
that framework, but there still are some fundamental issues 
remaining.
    The Afghans are very good and shrewd negotiators and I 
think they will use all leverage possible in this negotiation. 
I would just say the one thing about not having made that 
announcement, even though it might have contributed to some of 
the uncertainty going forward in Afghanistan, is that it is 
something that President Karzai and the Afghan Government needs 
to take seriously. They cannot take it for granted, and they 
need to have a very fair and balanced bilateral security 
agreement.
    Senator Kaine. Right. And I would think that there would be 
bipartisan agreement not only on this committee but more 
generally. If we cannot reach a bilateral security agreement 
that protects our personnel, then that is a default zero 
option, I mean, if they are not willing to do that.
    In addition to the three benefits that Dr. Hadley 
mentioned, would U.S. announcement of a force posture have an 
additional benefit of encouraging NATO allies to do the same, 
or is it likely that NATO allies will make hard commitments 
before we do?
    Ambassador Dobbins. Well, several allies have made 
generalized commitments, including the Germans, to take the 
lead in providing the core of a force in the northern part of 
the country, the Italians in the western part of the country. 
Several other allies have indicated their intention to stay. 
But, yes, they will measure their actual levels of commitment 
by ours in every case.
    Senator Kaine. Dr. Lavoy, do you agree with that?
    Dr. Lavoy. I do. We have had a principle governing our 
engagement in Afghanistan with the coalition: ``in together, 
out together.'' We are making decisions. Coalition cohesion is 
critically important, and I believe that will be a factor as we 
go forward.
    Senator Kaine. Great.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Kaine.
    Just very briefly, because I do want to get to our next 
panel, but while I have you here, Ambassador Dobbins, I mean, 
your title includes Pakistan.
    Ambassador Dobbins. Yes.
    The Chairman. And while this hearing is about Afghanistan, 
you cannot talk about Afghanistan in part without looking at 
the realities in Pakistan. So let me just put out one or two 
observations, then ask you a question.
    The last time I was in Pakistan, they obviously have their 
own interests. They also have their own views about our Afghan 
strategy, and they fear direct repercussions from instability 
in Afghanistan. And despite our generous assistance to 
Pakistan, which has been fraught with its own set of problems, 
I think we have not convinced them that we have shared goals 
and mutual interests in this regard.
    So what realistically can we expect from Pakistan vis-a-vis 
Afghanistan, and how is our own strategy informed by their 
calculations? And finally, as we inevitably see a reduction in 
these international troop presence, the insurgents will likely 
make an even more forceful push to gain more ground before 
December 2014 to further strengthen their bargaining position 
and some would say with the support of the Pakistan backers.
    Are there steps the United States is taking so that the 
Pakistan military is not allowed to hijack a reconciliation 
process to benefit its chosen Afghan proxies? What redlines are 
we drawing with Pakistan to make clear that we all need to be 
working from the same page here?
    Ambassador Dobbins. Well, like you, we are very concerned 
that the insurgency enjoys effective sanctuary and draws 
strength from that sanctuary in their operations in 
Afghanistan. We also recognize that the terrorists and 
insurgent groups within Pakistan operating against Pakistan are 
closely linked to those operating in Afghanistan, and we keep 
stressing to the Government of Pakistan that they cannot 
distinguish between benign insurgents and benign militants and 
malign militants, that to the extent militancy grows in their 
country, to whomever it may be directed, it is in the end going 
to destabilize their country, as well as that of their 
neighbors. And I think that recognition is beginning to sink 
in.
    I think you have opened a large issue that probably 
requires more discussion than we can do here. I think we do see 
an opportunity with the new civilian government that has a 
clear mandate----
    The Chairman. Are you suggesting that to give me a full 
answer, you need a classified session?
    Ambassador Dobbins. That was not my intention, but the 
answer is probably, ``Yes.''
    The Chairman. I am looking for as much of a public answer 
as I can. The question is--I have time. So I am ready to listen 
to your full answer on Pakistan.
    Ambassador Dobbins. I think we see an opportunity with the 
new civilian government with a clear mandate, a majority in 
Parliament. They are grappling with their own internal security 
problem which is in some ways more acute than that of 
Afghanistan. I do not know what the actual statistics are in 
terms of civilian casualties, but I think they are probably 
higher in Pakistan these days than in Afghanistan. And they are 
also conducting very significant military operations against 
militants, unfortunately not against the militants that are 
operating in Afghanistan, but against the militants that are 
operating in Pakistan. But they do have a substantial 
proportion of their military that is now committed to 
counterinsurgency operations in these border areas.
    This is a continued area of dialogue. Pakistan has become 
more cooperative and more helpful on the issue of 
reconciliation. Now, you suggested that that may be with an 
intention of hijacking the process. I think they, obviously, 
would like to influence the process. That is to be assumed in 
any case. But I do not think there is much likelihood that they 
will hijack it. Neither we nor the Afghan Government have any 
intention of allowing that to occur. And in any case, our 
objective in these negotiations is not ourselves to negotiate 
peace in Afghanistan but to initiate an intra-Afghan process.
    So I think your concerns about Pakistan are understandable. 
They are concerns that we have and discuss internally all the 
time. They are concerns that we address with the Government of 
Pakistan. I am hopeful that the Secretary of State will be able 
to visit Pakistan sometime soon. I have been there twice in the 
first 3 weeks in office and addressed many of these issues.
    The Chairman. Well, I think we will bring you back just 
maybe to start a discussion on Pakistan and move from there.
    I want two yes-or-no responses to these two questions so we 
can move on to the next panel.
    Ambassador Dobbins, can you assure the committee that you 
will work with INL to ensure that programs like the governor-
led eradication, the Justice Sector Support Program, and the 
Correction Systems Support Program, for which INL has already 
obligated over $400 million, will have adequate oversight and 
evaluation mechanisms so we know they are actually working and 
worthy of continued funding?
    Ambassador Dobbins. Yes.
    The Chairman. Dr. Lavoy, can you assure the committee that 
DOD will look into whether it is worth pouring more money into 
the counternarcotics police of Afghanistan, which has a series 
of issues with it?
    Dr. Lavoy. Yes.
    The Chairman. All right. That is the most succinct answers 
I have gotten in a long time.
    Thank you both for your testimony. You have the thanks of 
the committee, and we look forward to continuing to engage with 
you.
    Ambassador Dobbins. Thank you.
    The Chairman. With that, let me call up our next panel. On 
our second panel, we have a distinguished roster of private 
witnesses. Stephen Hadley was President George W. Bush's 
National Security Advisor. He is now a senior advisor for 
International Affairs at the U.S. Institute of Peace where he 
has worked closely with John Podesta and the Center for 
American Progress, pushing for credible Afghan elections in 
2014.
    Ms. Sarah Chayes is with the Carnegie Endowment for 
International Peace. She previously lived in Kandahar since 
2001 working as a journalist running an NGO, an agricultural 
cooperative, and advising U.S. military officials on Afghan 
corruption in Pakistan.
    And Mr. Nader Nadery wears many hats, including founding 
the Fair and Free Elections Foundation of Afghanistan. Again, I 
appreciate that he just arrived in from Kabul, and I want to 
thank him on behalf of the committee for flying in for this 
hearing to provide views from Afghan civil society.
    With that, again, we will include all of your testimony 
into the record.
    We ask our witnesses that are leaving if they can engage 
the press outside so that we can continue with the hearing.
    Your full statements will be entered into the record and, 
Mr. Hadley, we will start with you.

 STATEMENT OF STEPHEN HADLEY, SENIOR ADVISOR FOR INTERNATIONAL 
        AFFAIRS, U.S. INSTITUTE OF PEACE, WASHINGTON, DC

    Mr. Hadley. Thank you, Mr. Chairman, members of the 
committee. I want to express my appreciation for the 
opportunity to offer my views on the status of the Afghan 
transition. The views I express today are solely my own and do 
not represent those of the United States Institute of Peace 
which does not take policy positions.
    As you mentioned, my recent involvement with Afghanistan 
has mainly been as cochair with John Podesta of a bipartisan 
expert senior working group convened in 2011 and 2012 by USIP 
and the Center for American Progress.
    Our CAP-USIP senior working group concluded that the United 
States Government's objective in Afghanistan should be a 
relatively stable Afghanistan that does not slide back into 
civil war, destabilize its neighbors, or once again become a 
haven for transnational terrorists.
    But more than the peace and prosperity of Afghanistan is at 
stake. A safe, secure, and prosperous Afghanistan is an 
essential element to achieving stability, peace, and prosperity 
in all of northwest Asia--Afghanistan, Pakistan, India, the 
Central Asian states, and even Iran and Russia--for this cannot 
be a stable, prosperous region free from terror unless these 
conditions can be achieved in Afghanistan.
    The problems associated with achieving stability in 
Afghanistan have been exacerbated by the general hedging 
strategies among Afghans and their neighbors that are partly 
the result of uncertainties regarding the extent to which the 
United States is committed to Afghanistan post-2014. And that 
is why I am very much in sympathy with Senator Kaine and the 
portion he read from this testimony that we can solve this 
clarity problem if we would be clear soon that we are going to 
be in Afghanistan with a specific and significant number of 
troops adequate to do the missions we need to perform. And I 
think that word needs to get out very promptly, as we have 
talked about earlier in this discussion.
    Last month, full responsibility for security in all of 
Afghanistan's districts was formally handed over to Afghan 
forces. The army that the United States and its NATO allies 
have spent a decade helping to build and train has become one 
of the most trusted institutions in the country and now will 
have an opportunity to prove its worth to the Afghan people.
    The crucial question for the security transition is not 
about tactics or firepower, but whether these forces are united 
around the idea that they are a national force defending a 
legitimate government supported by all elements of Afghan 
society. At this point, the political transition is the most 
critical of the three transitions that will occur in 2014, the 
security, political, and economic. While the security 
transition is well underway and good progress has been made, it 
cannot succeed unless the 2014 elections are relatively free 
and fair and produce a government viewed as legitimate and 
supported by the Afghan people and accepted by Afghans' 
neighbors and the international community.
    If instead 2014 produces a corrupt and tainted election 
discredited in the eyes of the Afghan people and causing either 
the chaos of no coherent government or one viewed as 
illegitimate by the Afghan people, then we will be 
transitioning security responsibility to a government in a 
political meltdown, one that is unlikely to be able to command 
the support of the Afghan National Army and the other security 
forces. And at that point, the force could splinter along 
ethnic lines, contributing to instability and national 
fragmentation, violence, and perhaps a return to civil war.
    So the question is how can this legitimate government with 
popular support and improved governance come about. An open, 
free, and fair election with broad Afghan participation offers 
the best opportunity to reconcile the whole of Afghan society 
which currently feels largely excluded from the political 
process. As part of an inclusive peace process, the United 
States and Afghan Governments have tried to test the Taliban to 
distinguish those who wish to reenter the political process 
from those who wish to continue their war on Afghan society. 
The efforts to date have failed, with the Taliban refusing to 
participate in talks with the Afghan Government and now talking 
of closing their Doha office.
    While outreach to the Taliban should continue in a very 
careful way during the preelection period, the best time to 
test Taliban intentions will be after the conclusion of a 
successful election by a government of renewed legitimacy and 
popular support, backed by an army loyal to the government and 
supported by a significant post-2014 U.S. and coalition 
presence.
    In the interim, efforts should be focused on ensuring a 
successful election, which should include efforts to convince 
the Taliban to reduce violence during the election period and 
perhaps to agree to local cease-fires. The Pakistani Government 
should be enlisted in this effort. There should also be a 
robust communication plan by primarily Afghan voices to make 
clear that those who seek to derail the elections through fraud 
or violence are the true enemies of a peaceful and prosperous 
future for the Afghan people.
    Ultimately, the best prospect for achieving a stable 
Afghanistan will be a peaceful transition to a new government 
based on a free and fair Presidential election in 2014 that is 
credible and produces an outcome that is acceptable by the 
Afghan people. This outcome must be the U.S. Government's top 
priority in Afghanistan for the coming year.
    Thank you very much.
    [The prepared statement of Mr. Hadley follows:]

                  Prepared Statement of Stephen Hadley

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for this opportunity to offer my views on the 
status of the Afghan transition. The views I express today are solely 
my own and do not represent those of the United States Institute of 
Peace (USIP), which does not take policy positions.
    My recent involvement with Afghanistan has mainly been as a cochair 
with John Podesta of a bipartisan expert senior working group convened 
in 2011-2012 by USIP and the Center for American Progress (CAP). The 
working group focused on U.S. strategy toward Afghanistan and Pakistan, 
and in particular on the need for a clear political strategy to guide 
our security and economic strategies. We produced five policy white 
papers, making recommendations on political and economic components of 
U.S. strategy toward Afghanistan and Pakistan, and met multiple times 
privately with senior administration officials to share our views. The 
administration encouraged us also to share our views with congressional 
leaders, which we did through a series of briefings in 2012. This year, 
John and I have cochaired two ad hoc off-the-record meetings with 
experts and senior administration officials to focus on Afghanistan's 
political transition and specifically the 2014 Afghan elections.
    Our CAP-USIP Senior Working Group (SWG) concluded that the U.S. 
Government's objective in Afghanistan should be a relatively stable 
Afghanistan that does not slide back into civil war, destabilize its 
neighbors, or once again become a haven for transnational terrorist 
groups. While this outcome is desired by nearly all Afghans, it has 
been thwarted by the Taliban and other armed insurgent groups, 
neighboring countries, as well as the short-term concerns of powerful 
Afghan actors who have undermined the consolidation of democratic 
government institutions.
    But more than the peace and prosperity of Afghanistan is at stake. 
A safe, secure, and prosperous Afghanistan is an essential element to 
achieving stability, peace, and prosperity in all of northwest Asia--
Afghanistan, Pakistan, India, the Central Asian states, and even Iran 
and Russia. For this cannot be a stable, prosperous region free from 
terror unless these conditions can be achieved in Afghanistan.
    The problems associated with achieving stability in Afghanistan 
have been exacerbated by general hedging strategies among Afghans and 
their neighbors that are partly the result of uncertainties regarding 
the extent to which the United States is committed to Afghanistan post-
2014.
    The unfortunate recent press accounts of a ``zero option''--even if 
ultimately disavowed--are extremely damaging in this regard. The United 
States and its allies need to be actively countering the narrative of 
abandonment that is frequently heard in Afghanistan. The best way to do 
this would be for the U.S. Government to make clear as soon as possible 
its intention to have a robust troop presence in Afghanistan well 
beyond 2014 and to announce the size of that troop deployment now even 
before negotiations have concluded on the Bilateral Security Agreement 
(BSA) that will provide the legal framework for this troop presence. 
The U.S. Government should be clear that it is ready to negotiate an 
acceptable BSA with the current Afghan Government or, if necessary, to 
leave that negotiation to the post-2014 government. But the U.S. troop 
commitment needs to be made clearly and it needs to be made now. This 
will do three things:
          1. It will reassure Afghans that their votes in the 2014 
        election will count for something because the government they 
        elect will have the international support it will need to 
        succeed;
          2. It will encourage candidates to come forward to stand for 
        election;
          3. And it will lessen the ability of some Afghan elements to 
        use the BSA negotiations as a political football in service of 
        other agendas.
                          security transition
    Last month, full responsibility for security in all of 
Afghanistan's districts was formally handed over to Afghan forces. The 
army that the United States and its NATO allies have spent a decade 
helping to build and train has become one of the most trusted 
institutions in the country. Now it will have the opportunity to prove 
its worth to the Afghan people. According to the NATO International 
Security Assistance Force (ISAF), at its current capability, the Afghan 
National Army should be able to hold its own against the Taliban. Its 
best units, especially its special forces, are excellent. Its main 
deficiency is that it continues to suffer from high rates of attrition. 
Under the right conditions, these problems can be solved if the 
international community continues to provide the levels of support 
promised at the Chicago NATO summit last year. At an operational level, 
therefore, the security transition is on track.
    The crucial question for the security transition is not about 
tactics or firepower, but whether these forces are united around the 
idea that they are a national force defending a legitimate government 
supported by all elements of Afghan society. At this point, the 
political transition is the most critical of the three transitions that 
will occur in 2014--security, political, and economic. While the 
security transition is well underway, and good progress has been made, 
it cannot succeed unless the 2014 elections are relatively free and 
fair and produce a government viewed as legitimate and supported by the 
Afghan people and accepted by Afghanistan's neighbors and the 
international community. If instead 2014 produces a corrupt and tainted 
election discredited in the eyes of the Afghan people and causing 
either the chaos of no coherent government or one viewed as 
illegitimate by the Afghan people, then we will be transitioning 
security responsibility to a government in political meltdown--one that 
is unlikely to be able to command the support of the Afghan National 
Army and the other security forces. At that point, the force could 
splinter along ethnic lines, contributing to instability and national 
fragmentation, violence, and perhaps a return to civil war.
                          economic transition
    A successful political transition is also critical to the 2014 
economic transition. Afghanistan's economy has demonstrated significant 
growth over the past 12 years. The national currency has remained 
remarkably stable, only beginning to slide recently as a result of 
fears of instability beyond 2014. Much of this economic success has 
been the result of billions of aid dollars that have flowed into 
Afghanistan. As the transition continues, this funding will be reduced, 
and Afghanistan will need to supplement it with its own resources. The 
country has those resources, for example in vast potential mineral 
wealth, but needs to develop them. This will require a level of 
stability that allows construction and extraction, a regulatory 
framework that encourages investment, and a government that is 
effective enough to tackle corruption and ensure that the taxable 
revenues from the private sector and foreign donors end up in the 
national treasury, not in the pockets of politicians. The underlying 
condition for all of the above is, again, a legitimate government after 
2014 supported by the Afghan people and that can begin to put in place 
the economic policies that will allow Afghanistan to achieve real 
sovereignty by reducing its reliance on foreign donors.
                          political transition
    The question is how can this legitimate government with popular 
support and improved governance come about? An open, free, and fair 
election with broad Afghan participation offers the best opportunity to 
reconcile the whole of Afghan society which currently feels largely 
excluded from the political process. As part of an inclusive peace 
process, the U.S. and Afghan Governments have tried to test the Taliban 
to distinguish those who wish to reenter the political process from 
those who wish to continue their war on Afghan society. Efforts to date 
have failed, with the Taliban refusing to participate in talks with the 
Afghan Government and now talking of closing their Doha office.
    While outreach to the Taliban should continue in a very careful way 
during the preelection period, the best time to test Taliban intentions 
will be after the conclusion of a successful election by a government 
of renewed legitimacy and popular support, backed by an army loyal to 
that government, and supported by a significant post-2014 U.S. and 
coalition presence. In the interim, efforts should be focused on 
ensuring a successful election, which should include efforts to 
convince the Taliban to reduce violence levels during the election 
period and perhaps even agree to local cease-fires. The Pakistani 
Government should be enlisted in this effort. There should also be a 
robust communication plan by which primarily Afghan voices make clear 
that those who seek to derail the elections through fraud or violence 
are the true enemies of a peaceful and prosperous future for the Afghan 
people.
    Ultimately, the best prospect for achieving a stable Afghanistan 
will be a peaceful transition to a new government based on a free and 
fair Presidential election in 2014 that is credible and produces an 
outcome that is accepted by the Afghan people. This outcome must be the 
U.S. Government's top priority in Afghanistan for the coming year. 
Afghanistan's Constitution gives immense powers to the President, 
especially the power to appoint the most important figures in 
government, including Cabinet members, Supreme Court Judges, police 
chiefs, as well as provincial and district governors. A new President 
will offer the opportunity for a new governing team that is capable of 
commanding support from throughout the country and making the necessary 
political and economic reforms.
    A government of renewed legitimacy and popular support, backed by 
an army loyal to that government and supported by a significant post-
2014 U.S. and coalition presence, would be a powerful counterforce to 
the Taliban. A more effective government that is able to administer 
prompt justice even-handedly and increasingly deliver basic services to 
Afghans would provide a stark and compelling contrast to the Taliban, 
whose main strategy has been to deny Afghans access to government 
services and whose main tactics have resulted increasingly in the 
killing of innocent Afghans. Such a revitalized Afghan Government, 
backed by long-term international support, and with a smaller but still 
significant international military footprint, would undermine Taliban 
efforts to represent themselves as legitimate national political 
actors. And such a government would then be in a position to attract 
into the political process those Taliban prepared to surrender arms and 
turn to peace while leaving those that reject this offer to be dealt 
with by the Afghan army.
    While credible elections are clearly crucial to achieving stability 
in Afghanistan, there are serious questions as to whether the 2014 
elections will take place under conditions conducive to ensuring a 
legitimate broadly supported outcome. As the Wall Street Journal 
pointed out in an article on July 10, the failure of the Afghan 
legislative and executive branches to produce two electoral laws 
crucial to the effective conduct of the election would create real 
operational and political problems. If Parliament fails to do so before 
it adjourns, these electoral institutions would very likely be 
established by Presidential decree without the political consensus that 
parliamentary adoption would bring. The opposition has legitimate 
concerns that an electoral playing field created by Presidential 
decree, and with little consultation, will be tilted against them. 
Operationally, there is not much time to set up these institutions, 
adding to the serious logistical and security problems that will have 
to be addressed prior to elections now scheduled for April 5, 2014. 
Afghan political elites, representatives of the government, civil 
society, and all friends of Afghanistan need to encourage Parliament 
and the President to come together and adopt these necessary laws 
before Parliament adjourns.
    President Karzai's role in this transition is central. Many 
critical things have been said about him. I worked with him closely 
when I was in government. I respect him as a leader facing incredible 
challenges, who has not always received the respect or support he 
deserved in seeking to meet those challenges. He has begun the process 
of creating law-based, democratic institutions in his country. His 
legacy can now be to ensure the continuation of this process and 
setting his country on a course toward peace and prosperity. That 
process begins by ensuring a free and fair election in 2014 that 
produces a legitimate government supported by the vast majority of the 
Afghan people. If President Karzai steps up to this historic role, it 
behooves all Afghans to ensure that he can live in peace and honor in 
his country after his Presidential term is complete.
                            recommendations
    The following are recommendations on what needs to be done to 
support the upcoming political transition in Afghanistan. The primary 
responsibility for this transition--rightly--belongs to Afghans. Our 
main responsibility is to help to advance and not to undermine their 
efforts to hold a successful election and to achieve an effective 
handover of power to the next elected governing team.

    1. Credible elections are the top priority.--The U.S. Government 
must send a clear and consistent message, in words and deeds, that the 
elections are the top priority. We must be aware that there is a 
credibility gap between our stated commitment to the 2014 elections and 
the degree to which our commitment is believed by key Afghan actors. 
Our regional allies and partners can help to reinforce this message.
    2. Acts count as much as words.--We must be seen to invest 
political capital in helping to ensure the election takes place. It has 
been clear to Afghans that we have invested political capital in the 
Doha process. They must see a similar investment of political capital 
in the electoral process. The United States should also encourage 
consensus-building efforts among Afghan political actors to facilitate 
the emergence of electoral coalitions able to garner nationwide, 
multiethnic support.
    3. Logistics and security.--NATO ISAF forces should work with 
Afghan security forces to begin planning for the security and 
logistical challenges of the election. This can be part of the post-
security handover training and assistance mission. Support for an 
impartial election is a way for the Afghan security forces to 
demonstrate their capacity to act in the interest of the nation. Early 
and consistent public education messages are also essential.
    4. Support a dignified post-presidency role for President Karzai.--
The United States must allay any uncertainties that President Karzai 
might have about the U.S. commitment to support him in a dignified and 
secure post-Presidency.
    5. Counter the abandonment narrative.--The uncertainty regarding 
the future of the U.S. engagement in Afghanistan is a major cause of 
hedging strategies that undermine the current transition. The Bilateral 
Security Agreement should be concluded as soon as possible, or failing 
that, the United States should state publicly now its commitment to 
maintaining a specified and significant number of U.S. troops post-
2014.
    6. Protect the gains made by women.--One of the most important 
achievements of the past decade has been the tremendous gains made in 
protecting and promoting the rights of Afghan women. Afghanistan needs 
the resources and inputs of all of its population to resolve its 
problems and take advantage of its opportunities. The United States 
must continue to press that these rights, currently guaranteed in the 
Afghan Constitution, be both preserved and made real for more Afghan 
women post-2014.
    7. Look for opportunities presented by Pakistan's new government.--
The United States has an opportunity with the new Pakistani Government 
to find ways in which Pakistan's legitimate security concerns can be 
addressed through a framework in which Pakistan's and Afghanistan's 
sovereignty are mutually reinforced, while the United States maintains 
good relations with both.

    The United States and the international community have 18 months in 
which to align efforts behind an overriding objective of a successful 
political transition. If this is done with clarity and purpose, there 
is a strong chance of consolidating much of what has been achieved over 
the past 12 years. It is clearly time to transition the U.S. engagement 
in Afghanistan to a more sustainable level. But we must manage this 
transition period extremely carefully to protect the gains that have 
been achieved at such great cost.
    Thank you Mr. Chairman, and I am happy to take questions.

    The Chairman. Thank you.
    Ms. Chayes.

STATEMENT OF SARAH CHAYES, SENIOR ASSOCIATE, CARNEGIE ENDOWMENT 
            FOR INTERNATIONAL PEACE, WASHINGTON, DC

    Ms. Chayes. I thought we are going to go in the order we 
were sitting.
    Thank you very much, Chairman Menendez. Mr. Kaine, thank 
you very much for this opportunity to discuss conditions in 
Afghanistan and the implications for United States policy.
    Just to remind you of my dual perspective, about 8 years in 
downtown Kandahar and then serving for two COM ISAFs and the 
Chairman of the Joint Chiefs. Of course, judgments are my own. 
They got used to that, most of them.
    Three topics dominate the Afghanistan debate: the security 
situation and related to that, the size of a residual U.S. 
force; the 2014 election; and though it has not really been 
apparent here today, negotiations with the Taliban.
    In each case, I think eyes are fixed on the formal process 
while the real meaning lies beneath that surface. What is 
missing is a political strategy within which the formalities 
might add up to something. At this point, I think that strategy 
must include a more broad-based reconciliation process that 
could set the stage for credible elections and a new approach 
to Pakistan.
    On elections, I would really just like to second everything 
that you, Mr. Chairman, said and Ranking Member Corker. Sadly, 
what really matters in Afghan elections today is not votes, the 
ability to mobilize them, but who controls the process. So last 
weekend, the head of the Election Commission declared that 
parliamentary debate on the legislation mentioned by Ambassador 
Dobbins has dragged on for too long, and Karzai will just be 
enacting regulations by decree. That is a really big issue.
    Also, as I have mentioned here previously, U.S. payments to 
the key political actor also matter.
    Here is my recommendation. If the U.S. Government--and it 
is going to echo a lot of what has been said here today--is 
going to lend the moral authority of this country to the 2014 
election, then words like ``credible'' have to mean something. 
U.S. support for the vote must be contingent on some standards, 
for example, an empowered Elections Commission whose members 
are not appointed by the President. If Mr. Karzai wants to run 
an election he can control, OK, but not on the U.S. dime and 
not on the democratic reputation of the United States. And I am 
not sure that another ambassador in Kabul really would change 
these dynamics necessarily. It did not in 2009.
    On security, again a lot of talk has been devoted to the 
Afghan National Security Forces' tactical capabilities. There 
have been real improvements though, as mentioned, the ANSF 
casualty rate has spiked over any previous record, according to 
ISAF officials, at more than 40 casualties per 10,000 
servicemembers per month, which would be approximately a total 
of 1,200 killed and wounded per month, higher than today's 
Washington Post puts it.
    But the technical skills of Afghan soldiers are really 
beside the point. To echo Mr. Hadley in different words, an 
army, the best army--it is only a tool in the hands of a 
government. You can exercise it, take the arm to gym and do 
exercises, lift some weights, but if the body to which that arm 
is attached is nonviable, then it is not going to be able to 
defend much. That is the substance that keeps getting missed.
    On that and security in general, measures lack. ISAF 
stopped reporting violence statistics in March. They were 
disputable anyway--those statistics. So we are left with 
anecdotes.
    Madrasa students in Pakistan are being sent into the fight 
in large numbers this year. Taliban are attacking in larger 
groups than they have in years, but there have been 
improvements in Kandahar, for example, which is my own 
experience. Afghan colleagues there can visit areas the Taliban 
controlled in 2009. The current police chief is keeping the 
Taliban at bay, but at such a cost in extrajudicial killing 
that he is turning much of the town against him. His name is 
Raziq. I have known him for more than a decade, and this was to 
be expected. I warned General Petraeus when he was COM ISAF 
about this man's style and the potential Leahy amendment issues 
that it raises. Meanwhile, northern Helmand, for example, is 
reinfested with Taliban.
    A point often missed is the Taliban strategy is to obtain 
the maximum policy impact for the minimum investment of 
resources. That is what asymmetric warfare is all about. So 
note the recent attacks. The usefulness in that context of any 
assessment of current security trends for predicting outcomes 
is questionable.
    As for residual U.S. troops, I am actually not sure that 
10,000 would make much more of an impact on security and 
stability in Afghanistan than zero. My reading of the signals 
in this town is that zero is a pretty likely bet. And to be 
honest, in the absence of a policy framework within which the 
commitment and sacrifice would make sense, I am finding it 
difficult to argue with that.
    So how to get to zero without leaving a black hole behind, 
how to get to zero responsibly honoring the efforts and losses 
and preserving some potential for the Afghan people and for 
regional stability.
    Here is my recommendation. Do not look to security 
structures to provide security amidst political meltdown. The 
way to wind down United States involvement in Afghanistan 
without the place unraveling behind us is not to focus on 
military technicalities. It is to take a different approach to 
the political context. A single negotiating track with the 
Taliban leadership was never the right approach for a couple of 
reasons. The ISI involvement with Taliban leadership may be 
complex and fraught, but it is effective, as Ranking Member 
Corker raised earlier. It is likely that the ISI started 
reconstituting the Taliban in late 2002, and I watched them 
doing that precisely with negotiations in mind. They, like us, 
presumed an insurgency would end in negotiations, and they 
wanted to drive us there and then control the outcome. The ISI 
retains enough hold over Taliban leadership to choose who goes 
to Doha and what they settle for. Ironically, we have been 
practically begging Pakistani officials to play that role.
    In other words, we would not be negotiating with autonomous 
representatives of an Afghan movement in Doha. We would be 
talking to the ISI by proxy. That carries a couple of 
implications. It means we are effectively rewarding Pakistan 
for the deliberate use of violent proxies as an instrument of 
national policy, and it means the terms of any deal would 
likely be unacceptable to most Afghans because they would 
entail surrendering too much sovereignty, which brings me to my 
next point.
    It is not just the Taliban who are opposed to the way the 
Karzai government has been operating. It is most Afghans. But 
the others did not take up arms, and yet those Afghans have no 
seat. We are, in effect, punishing the nonviolent opposition in 
our rush to placate the violent opposition. This approach does 
not line up with our values as a nation, and it is almost 
guaranteed not to work but rather to lead to the next war.
    Here is my recommendation. Two prongs. With respect to 
Afghan reconciliation, make it much more inclusive like what 
the French tested late last year in Chantilly. Involve all the 
major constituencies including the Taliban and members of the 
Karzai government.
    With respect to Pakistan, first, raise the cost of using 
violent proxies as an instrument of policy by an array of 
leverage and smart sanctions do not ask Pakistani officials to 
act as agents to help organize intra-Afghan talks.
    Second, open a proper state-to-state channel through which 
Pakistan can identify and address its legitimate strategic 
aspirations and concerns with respect to its neighbor.
    Mr. Chairman, I really think only such a change in our 
political approach can offer a way to conclude military 
involvement in Afghanistan without leaving the region more 
dangerous than we found it in 2001.
    Thanks.
    [The prepared statement of Ms. Chayes follows:]

                   Prepared Statement of Sarah Chayes

    Chairman Menendez, Ranking Member Corker, committee members, I am 
grateful for this opportunity to speak with you about conditions in 
Afghanistan, and the implications for U.S. policy.
    My analysis derives from a rare dual perspective: I lived in 
downtown Kandahar for most of the past decade, among ordinary men and 
women from the city and the surrounding villages, no guards or barbed 
wire, no translator. And, from 2009 through 2011, I served as special 
adviser to two ISAF commanders and then the Chairman of the Joint 
Chiefs of Staff.
    Of course, my judgments are my own. They got used to that--most of 
them.
    Three main topics dominate the current Afghanistan debate: the 
security situation--and related to that, the size of a residual U.S. 
military force--the 2014 Presidential election, and negotiations with 
the Taliban. In each case, attention is fixed on the formal process, 
while the real meaning lies beneath that surface. What is missing is an 
overall political strategy within which technicalities might add up to 
something. At this stage, that strategy must include a more broad-based 
reconciliation process that would help set the stage for credible 
elections, and a different approach to Pakistan.

On Elections
    Some in Washington argue for making the 2014 exercise central to 
U.S. policy. They focus on voter registration and other such 
technicalities. I don't disagree with the sentiment.
    But while we are all discussing the vital importance of a credible 
election, moves are being made on the ground to ensure it will be no 
such thing. Sadly, what matters in Afghan elections as they are 
currently run is not who can mobilize the most votes, but who can 
control the process. So President Karzai and his lieutenants in the 
executive branch are grappling with some of your counterparts over the 
makeup and duties of the election commission and the complaints body. 
No surprise, Karzai is winning. As of this weekend, the head of the 
election commission declared that the tussle over the electoral law had 
gone on too long for the provisions to be implemented, and that Karzai 
would be enacting regulations by legislative decree.
    In this context, I've already spoken about the issues raised by 
U.S. payments to the key political actor.
    Recommendation: If the U.S. Government is going to lend the moral 
authority of this country to the 2014 election, then words like 
``credible'' have to mean something. U.S. financing and support for the 
vote must be contingent on Kabul's adherence to some minimum standards. 
A truly independent, empowered elections commission whose members are 
not appointed by the President, for example, and a real complaints 
mechanism, with teeth. If President Karzai wants to run an election he 
can control, that's his right. But not on the U.S. dime, and not on the 
democratic reputation of the United States.

On Security
    Much attention has been devoted to the Afghan National Security 
Forces' tactical capabilities. There have been improvements--though 
vetting and discipline problems were devastating just a year ago. And 
the ANSF casualty rate has spiked over last year's, according to U.K. 
officials. Attrition is also up.
    But the technical skills of Afghan soldiers are really beside the 
point. The real meaning is this. An army--the best army--is only a tool 
in the hands of a government. You can exercise that army, sort of like 
taking an arm to a gym and lifting weights with it, but if the body to 
which it's attached is nonviable, it won't be able to defend much. That 
is the fundamental point that keeps getting missed in discussions about 
ANSF capabilities.
    Trying to get a meaningful read on the security situation is 
elusive. ISAF stopped keeping violence statistics in March. And they 
were disputable anyway. So only localized anecdotes are left. There are 
clear improvements around Kandahar. Colleagues of mine are now able to 
visit areas that were under deadly Taliban control in 2009. The current 
police chief of Kandahar is keeping the Taliban at bay, but I'm hearing 
at such a cost in extra-judicial killing that he's turning much of the 
town against him. I have known him for more than a decade and this was 
to be expected. I warned General David Petraeus, then commander of 
ISAF, about the police chief's style and the potential Leahy amendment 
issues it raises. Meanwhile, northern Helmand is already reinfested 
with Taliban, according to both residents and U.S. military personnel.
    A point often missed in assessments of security is that the 
Taliban's strategy is to obtain the maximum policy impact for the 
minimum investment of resources. That is what asymmetric warfare is all 
about. Recent spectacular attacks in Kabul and elsewhere indicate 
they're still doing a good job at that.
    What local deals are being made between a given kandak and the 
local Haqqani commander? Whose fighters are waiting for ISAF's final 
departure? What depredations are the local police committing? No one 
can claim to know, beyond a very localized understanding.
    So any assessment of current security trends can only be a surface 
impression. Its significance for predicting outcomes is minimal.
    As for residual U.S. troops, 10,000 would not make much more of an 
impact on security and stability in Afghanistan than zero. My reading 
of the signals in this town is that zero is a likely bet. And to be 
honest, in the absence of an overall policy framework within which the 
commitment and sacrifice would make sense, I find it difficult to argue 
otherwise.
    But how to get to zero U.S. troops after 2014 without leaving a 
black hole behind? How to get to zero responsibly, honoring the efforts 
and losses of so many, and preserving some potential for the Afghan 
people and for regional security? The obligation the United States 
engaged by intervening in the first place--and the historical memory in 
that region of the U.S. just leaving--imposes one last effort to think 
that through.
    Recommendation: Don't look to security structures to provide 
security amidst political melt-down. The way to wind down U.S. 
involvement in Afghanistan without the place unraveling behind us is 
not to focus on military technicalities. It is to take a different 
approach to the political context.

On Negotiations
    The idea of a single negotiating track with Taliban leadership was 
never the right approach to the political context--for several reasons. 
The ISI involvement with Taliban leadership may be complex and fraught, 
but it is deep and effective. It is likely that the ISI started 
reconstituting the Taliban in late 2002--and I watched them doing it--
with precisely the aim of negotiations in mind. They, like us, presumed 
an insurgency would end in negotiations, and they wanted to drive us 
there, and then control the outcome. The aim was to regain a degree of 
the proxy control over Afghanistan that they enjoyed under the Taliban 
regime. Now, however the relationship may have evolved, the ISI 
certainly retains enough hold over Taliban leadership to choose who 
goes to Doha, and what they settle for. And ironically, we have been 
practically begging Pakistani officials to play that role.
    In other words, we would never be negotiating with autonomous 
representatives of an Afghan movement in Doha, even if talks started. 
We'd be talking to the ISI by proxy. That carries a couple of 
implications. It means we are effectively rewarding Pakistan for the 
deliberate use of violent proxies as an instrument of national policy. 
Other countries, like Iran and North Korea, may take notice. And it 
means that the terms of any deal that might result would likely be 
unacceptable to most Afghans, because they would entail surrendering 
too much sovereignty.
    Which brings me to my next point: it's not just the Taliban who are 
bitterly opposed to the way the Karzai Government has been operating. 
Most Afghans are. But the others did not take up arms. Even though the 
ballot box--due to fraud--has not been a recourse. And yet, those 
Afghans have no seat at these negotiations. We are in effect punishing 
the nonviolent opposition in our rush to placate the violent 
opposition. This approach does not line up with our values as a nation. 
And it is almost guaranteed not to work--but rather to lead directly to 
the next war.
    Recommendation: Two prongs. With respect to Afghan reconciliation, 
make it much more inclusive, along the lines of what the French tested 
in Chantilly late last year. Include all the major constituencies, 
including the Taliban and members of the Karzai government, as coequal 
participants. Choice of participants would necessarily be arbitrary and 
imperfect at this late date, but it can easily be made more 
representative than the Doha process. Talks should be facilitated by 
talented international mediators, perhaps sponsored by one or more of 
our NATO partners.
    With respect to Pakistan, first and--in concert with our allies 
including the U.K.--raise the cost of using violent proxies as an 
instrument of policy, by means of an array of leverage and smart 
sanctions. Certainly do not ask Pakistani officials to act as agents to 
help organize intra-Afghan talks. Second, open a proper, formal, state-
to-state channel through which Pakistan can identify and address its 
legitimate strategic aspirations and concerns with respect to its 
neighbor. Again, this is the type of initiative international bodies 
are well-placed to help facilitate.

    Mr Chairman, only such a change in our political approach can offer 
a way to conclude U.S. military involvement in Afghanistan without 
leaving the region even more dangerous than we found it in 2001. Such 
an adjustment would not require more material resources, just more 
focus and attention, and the willingness to take some political risk.
    Thank you for inviting me to share these thoughts.

    The Chairman. Thank you.
    Mr. Nadery.

STATEMENT OF AHMAD NADER NADERY, FOUNDER AND CHAIRMAN, FAIR AND 
  FREE ELECTIONS FOUNDATION OF AFGHANISTAN, KABUL, AFGHANISTAN

    Mr. Nadery. Chair Menendez, Senator Kaine, thank you very 
much for the opportunity to speak before this committee at a 
very critical time of our history in Afghanistan.
    I will speak today about three issues, mainly political 
transition, the talks in Doha, and generally the talks with the 
Taliban, and the ongoing security transition.
    I will also outline what is rarely reported in the media, 
that Afghanistan is at a turning point with transformation made 
in many spheres and newly found confidence in our state and 
security forces. Personally, whenever I see the young women and 
men in uniform, I feel proud in Afghanistan.
    However, there are risks and fears. Many Afghans had their 
confidence shaken by the recent events in Doha, which helped 
legitimize terrorist groups and played into Pakistan's hand.
    The news this week that President Obama was again 
considering zero troops also shook confidence in Afghanistan. 
We understand your frustration but, Respected Senator, your 
real partners in Afghanistan are the Afghan people, not our 
current officials alone. In less than a year, we will have a 
new President and a year later, a new Parliament. At this 
moment when the blood, sweat, and tears of these past 10 years 
is finally starting to pay off, it would be a great mistake to 
sacrifice our achievements to a hasty withdrawal or a bad deal.
    Today life for most Afghans, particularly women and 
children, has changed for the better. Democratic freedoms, 
women's rights, and the media represent some of the greatest 
achievements of the past 10 years of international engagement. 
We have got 8 million children in school, more than 100 
universities, a young population with real opportunities for 
upward mobility. And with our security forces growing in 
strength, transition has exceeded our expectation. That is why 
it is vital to get the political transition right.
    We welcome Secretary Kerry and General Dunford in today's 
Washington Post calling for a free, fair, and transparent 
election. There are huge challenges but continued U.S. 
attention we believe can make a real difference.
    The priorities are, therefore, first, President Karzai 
needs to approve the electoral law, appoint a chair of the 
Election Commission, and put a complaint process in place.
    Second, the United States should promote a level playing 
field and continue to insist elections are held on time and 
according to the Afghan Constitution.
    Moving to Doha, Doha really distracted, we believe, the 
highest level of the U.S. Government for our political 
transition and sidelined negotiations over the very critical 
issue of the bilateral security agreement. It emboldened the 
Taliban and played very easily into the hands of Pakistan. The 
Taliban show little sign of being ready or able to negotiate or 
respect our constitutional order or women's rights or 
democracy. They have actually become more extreme in their 
deliberate attacks against the civilian population. I lived 
through their rule, so I know how brutal they are.
    If we focus on political transition with a new government, 
a fresh mandate, backed by a bilateral security agreement, we 
can create incentives for the Taliban and for Pakistan for them 
to rethink their strategy to one that is more conducive and 
inclusive of peace.
    On security, Mr. Chairman, the newfound strength and 
courage of our security forces has been demonstrated by their 
speed with which they have closed down recent attacks on our 
capital with minimal loss of life. But we still face big 
challenges. Our forces are already missing the coalition 
enabler support. Senator Corker has spoken about that also. The 
Afghani Air Force is not in place and while our people want to 
serve in the air force, it will take more time to build. 
Technical knowledge like counter-IED and military intelligence 
is growing but slowly. On top of this, our brave forces are not 
yet supported by a commander in chief that they deserve.
    We know our forces are fighting bravely, being killed and 
wounded for the defense of their own country, but they need 
continued help. That means, first, a bilateral security 
agreement to boost confidence. Second, fulfilling Chicago 
commitments to the Afghan Air Force and maintain some 
international air support until our Afghan air force can take 
full responsibility. Finally, fulfill commitments for financial 
and material support for the continued development of the 
institutional strength of the Afghan army, police, and 
intelligence.
    We are in debt to the United States for all you have done 
for our country. We know it is a burden. We do not seek an 
open-ended support, but we are now so close to a turning point. 
Soon we can become your trusted ally in an uncertain region.
    I look forward to your questions and thank you all, 
committee members, for your continued engagement and interest 
in my country and for giving me this opportunity to speak. 
Thank you very much.

                   Prepared Statement of Nader Nadery

                              introduction
    Senator Menendez, Ranking Member Corker, and members of the 
committee, thank you for the opportunity to testify before this 
committee at this critical time in Afghanistan's political transition.
    I am the chairperson of the Free and Fair Elections Federation of 
Afghanistan (FEFA) and the Director of the Afghanistan Research and 
Evaluation Unit (AREU). From 2004 until last month I was a commissioner 
of the Afghanistan Independent Human Rights Commission.
    I will be speaking about three issues that can determine the course 
of Afghanistan's future: The ongoing security transition; the upcoming 
political transition and elections; and, finally the public perception 
of the current efforts to start negotiations with the Taliban, and U.S. 
role within it.
    I will also outline for you what so rarely gets reported in the 
media--that Afghanistan is at a turning point toward stability, with 
our people beginning to have faith in a democratic system. The 
investments of the last decade by Afghans and their partners, in 
particular the United States, have transformed the country. We have 
seen unprecedented progress made in many spheres, but perhaps what 
makes me most proud is that on the eve of transition, Afghans are ready 
and eager to stand on their own feet, with a newfound trust in the 
abilities of their security forces.
    However, alongside this new sense of determination, there are risks 
and fears. Many Afghans had their confidence shaken by the recent 
opening of a Taliban office in Doha. Even if the Taliban have 
temporarily closed the office, the process helped to legitimize a group 
that is terrorizing the Afghan people, and played directly into 
Pakistan's hands. The United States involvement in that process gave 
rise to conspiracies in Afghanistan about the real priorities of the 
U.S. Government. It would be a tragedy if--at this moment--when so much 
of the blood, sweat, and tears of these past 10 years is paying off--
the achievements that the United States has helped to win were 
sacrificed for a deal that could destroy them. Particularly when we 
stand less than a year away from elections which will bring a new 
leader with a fresh mandate to govern, and to negotiate on behalf of 
the Afghan people.
    Similarly, the recent reports that the United States might be 
seriously considering a rapid drawdown to ``Zero Troops'' sends a 
terrible message to Afghans at this critical juncture. It would be a 
waste if the very understandable frustrations with our leadership 
should prompt a precipitous withdrawal during this delicate phase. 
Drawing down to zero troops before transition is complete would shake 
the confidence of your true partners in Afghanistan--the Afghan people. 
And it would send a message to the Taliban that the United States is 
giving up on all its good work here.
    With a small residual force, increasingly tailored over time, all 
the impressive work of the United States military in helping to build 
our army and police force can be cemented. Combine this with a 
Bilateral Security Agreement and a new government and Parliament, and 
you have the outlines of a far more stable trajectory.
    Many Afghans--particularly among our new generation, who constitute 
the majority of the people--have genuine faith in the continued 
development of a moderate, democratic Afghan Republic. The U.S. 
Congress has rightly been concerned about the corruption in our 
government, but most Afghans do not simply judge the state on the flaws 
of individuals. It is the state institutions--in particular our armed 
forces--that have earned the respect of the people. This stands in 
absolute opposite to the Taliban-era Islamic Emirate of Afghanistan.
    This is because beneath the dismal headlines that often dominate 
the international media, life for most Afghans has changed for the 
better. Educational and employment opportunities, women's rights and 
democratic freedoms represent some of the greatest achievement of these 
past 10 years of international engagement. As this ``Decade of 
Transition,'' comes to an end, the highly anticipated ``Decade of 
Transformation'' can be built on the gains of what was achieved in the 
past 12 years.
    But for all these achievements, the future of Afghanistan might 
still be unstable at best or disastrous at worst without close 
attention to the following three areas: one, the security transition; 
two, the political transition, including the election of a new 
President in less than a year; and three, public confidence in the 
peace and reconciliation process.
Transition: Impact and Assessment
    First allow me to briefly discuss how Afghanistan looks today, at 
the end of the Transition decade:
    In terms of social change:

--We've had a rapid demographic shift--with over 60 percent of the 
    population under the age of 20. This new generation benefits from 
    huge improvements in educational opportunities, urbanization, and 
    greater social mobility.
--We have some extraordinary women leaders in the public sphere, 
    including parliamentarians, doctors, lawyers, judges and civil 
    society leaders, with women's rights being articulated by men as 
    well as women activists. As a concrete example of their recent 
    gains--2 months ago Afghanistan adopted its first workplace 
    antiharassment regulation championed by two dynamic young 
    technocrats in government in partnership with civil society. It is 
    now enforced throughout local government.
--Human rights, including a commitment to the concept of human rights, 
    are becoming firmly established in public discourse.
--Over 8 million children are enrolled in schools of which 2.6 million 
    are girls. We have over 100 private and public universities 
    compared to only 5 in 2004.
--Improvements in primary health care have led to a sharp drop in 
    maternal and infant mortality rates.

    Moving on to the security, democratic, and economic spheres:

--The security handover is now complete--and has fared much more 
    successfully than most had predicted. This has only further boosted 
    the confidence of Afghans on their own security forces. This might 
    not be the impression you get here, reading the endless bad news 
    about Afghanistan in the international media. But in Afghanistan we 
    highlight our successes as well as our failures. The June attack on 
    the Presidential Palace was a clear example of this: here in the 
    United States it was reported as a dramatic breach of security. In 
    Kabul reporters and analysts also commented on the ability of the 
    Afghan security forces to bring an end to the attack in just 90 
    minutes.
--Now, to complete what we see as a successful security transition, it 
    is time to finalize the Bilateral Security Agreement, which will 
    support the political and ensuing economic transition.
--In the democratic sphere: we've seen new maturity and development in 
    our political parties. New political movements and parties have 
    emerged that are not based on individual strongmen or ethnicities, 
    but represent the new generation. Consensus-building is now the 
    norm. For instance, last fall FEFA facilitated negotiations between 
    48 political parties and civil society organizations, which 
    resulted in the adoption of a 50-point ``Declaration of Principles 
    on Electoral Reform.'' So while our elections still face huge 
    challenges--these trends show democracy is taking root.
--The media--a prerequisite for any democracy--is one of our great 
    success stories. Today 95 percent of the Afghan population is 
    exposed to some form of mass media and almost 500,000 Afghans are 
    on Facebook compared to almost zero access to Internet 10 years 
    ago. We have 50 television stations, 150 radio stations, and 100s 
    of newspapers.
--While the fight against corruption remains challenging, as it is for 
    so many developing nations, the newfound courage of our media in 
    taking on high-level corruption and impunity gives me confidence 
    that we can begin to cure this cancer. Afghan journalists are 
    routinely putting themselves at risk to report on the crimes of 
    some of the most powerful, and in doing so starting to change the 
    culture of impunity.
--And it's not just the media that is pushing for better governance. 
    The Free and Fair Election Foundation, which I head, is pushing for 
    electoral transparency and demanding accountability of 
    parliamentarians to their constituencies. Afghan watchdog groups 
    like Afghan Anti-Corruption Network, Integrity Watch, and Equality 
    for Peace and Democracy have also become bold advocates for 
    cleaner, more transparent government. Their advocacy recently 
    triggered a parliamentary effort to impeach a minister accused of 
    corruption.
--In the economic and development sphere, hundreds of Afghan-owned 
    small and medium-sized enterprises have sprung up; 16,000 new 
    businesses were registered between 2004 and 2011, and thousands of 
    kilometers of roads have been paved. Our telecommunications 
    industry is thriving with around 20 million cell phone users (out 
    of a population of 35 million). And with significant reserves of 
    rare earth, minerals, gas, copper, and iron ore it is not too 
    outlandish a statement to say that Afghanistan has the capacity to 
    achieve economic autonomy.
--And last but not least--there's been unprecedented progress in sports 
    and athletics--we won two Olympic medals in 2012, our cricket team 
    made it into the international top 20, we have a newly created 
    football league which has jumped up the international rankings 
    after lying dormant for nearly 20 years. We have even nurtured a 
    strong women's football team.

    Alongside these great gains, the reality is that today's 
Afghanistan presents a dual picture: there are small but highly visible 
groups of Taliban and other terrorists who are rooted in Afghanistan's 
past--a past wracked by repression, lawlessness and a painful isolation 
from the rest of the world.
    But a growing majority of Afghans have left that past behind. While 
suicide attacks and violence still make the headlines, most Afghans are 
now focused on jobs, the rule of law, accountability and the coming 
elections in 2014.
    Our civil society has grown in confidence, diversity, and 
strength--from emerging new political parties to women leaders, to our 
courageous investigative reporters and dynamic entrepreneurs; we are 
all invested in the same future, the same path to continued progress.
    As 2014 rapidly approaches, we look back at the last decade of our 
efforts that have born all these fruits with delight. I grew up during 
the civil war and lived through the Taliban's brutal rule; I can attest 
personally that the past decade has led to radical improvements for our 
nation. But, cementing these achievements and paving the path for 
future peace and progress is also on our minds, for these gains can be 
quickly unraveled.
    After this ``Decade of Transition,'' Afghans share a collective 
sense of ownership with the process and faith in the system. With 
international support, we are now leading the ``Decade of 
Transformation.''
Political Transition: Free and Fair, Achievable and Effective Elections
    At the heart of political transition are the upcoming elections in 
2014 and 2015, which have the potential to redefine Afghanistan's 
future as well as to cement the investments of the United States in our 
emerging democracy. We welcome Secretary Kerry's commitment to 
promoting a ``free, fair, and transparent elections in 2014.'' However, 
for this to happen, the United States cannot afford to be sidetracked 
by the likes of the Doha process. Such distractions have the potential 
to jeopardize the political transition and the achievements made to 
date. I would therefore urge Ambassador Dobbins and his team to keep 
their focus on Afghanistan, not Doha, and make the political transition 
and the elections, their first priority.
    Of course, challenges remain, but a credible election is the first 
step to building a credible government. There is still time to put in 
place the proper legal framework and to develop the necessary electoral 
institutions to ensure noninterference. Afghans are working hard to 
hold their government to account, and ensure that Afghans have the 
confidence and motivation to take part. The United States can also play 
an important role in the process.
    This upcoming election is already prompting robust campaigns and 
debates all over Afghanistan. It is clear to anyone and everyone 
involved with voting, elections, and government in Afghanistan that a 
sound legal framework is required. There are lively national debates on 
the progress of two laws that will create an improved legal framework 
for our elections--both laws have been passed by the upper and lower 
Houses of Parliament but still need Presidential approval.
    If the President doesn't approve the election laws in the next few 
days or weeks, the elections will go ahead according to the 
Presidential Decree that was used in 2010. We know from bitter 
experience how flawed that legislative decree is. Afghan civil society 
and our international partners have worked hard to try to make sure we 
have an improved legal framework, including an independent electoral 
commission and an electoral complaints process. But time is running out 
to ensure that happens.
    One positive sign is that operational preparations are taking place 
months earlier than in previous rounds--for example, the Afghan 
security forces announcing their plans in good time, including polling 
station locations. Voter registration is taking place--while initial 
indicators reveal low women's participation, this is an area the Afghan 
Government with the support of the international community can 
prioritize and rectify.
    One of the most pressing challenges is that the Presidential 
elections will take place within a matter of months and the appointment 
of the chairman for the Independent Elections Commission has yet to be 
announced. The IEC is at the front and center of elections. Without a 
credible leader in place, who has a proven independence and an 
established record, and is driven, committed, and capable, the election 
commission will struggle to build the necessary confidence with the 
public.
    To counter these challenges and to ensure Afghanistan is given the 
fighting chance it deserves to hold free and fair elections, there are 
a few actions to consider:

    (1) All efforts should be made to make sure that appointment of the 
IEC commissioners and in particular the chairperson are made through 
transparent and consultative means so that the next IEC will be 
perceived as credible and can perform independently of the executive.
    (2) While the United States cannot support an individual candidate, 
it should not shy away from supporting democratic parties, platforms, 
and institutions so that there is a level playing field. It should 
continue to stress the need for noninterference by the Afghan executive 
in the electoral processes, and fair access to the media.
    (3) The United States should continue to insist on the elections 
being held on time and according to the Afghan Constitution, and 
continue to support and strengthen the IEC's antifraud measures and 
capacities so that they can manage a smooth post-election period.
    (4) All efforts should be made to facilitate the deployment of 
international election observers as well as supporting domestic 
electoral observers like my group--the Free and Fair Elections 
Foundation of Afghanistan (FEFA), not just through the 2014 elections, 
but through the 2015 elections and beyond.
    (5) By 2014 the Afghan security forces will have sole 
responsibility for security, including the polling centers. With a 
small contingency force NATO and U.S. forces can provide confidence, 
and if required can assist with small but important tasks should an 
emergency arise--such as providing the IEC logistical support for 
deployment of electoral material.
Doha, the Threat of the Taliban Emirate, and a Real Path to Peace
    The people of Afghanistan want peace, not appeasement. The United 
States should not be giving any sense of false legitimacy or 
credibility to a terrorist group, or to Pakistan's games. When the 
``political office'' of the Taliban was opened in Doha it sent a signal 
to Afghans that the United States was not committed to working with the 
representative Government of Afghanistan.
    This uncertainty about the position and priorities of the United 
States is dangerous for a number of reasons. Firstly because it 
distracts the highest levels of the U.S. Government from helping to 
ensure a smooth and viable political transition, and sidelined 
negotiations over the Bilateral Security Agreement. The message that 
Doha sent can lead to hedging behavior by Afghans, which can be very 
destabilizing.
    Second, it emboldened the Taliban. The audacity of the Taliban 
flying a flag of the ``Islamic Emirate of Afghanistan'' was shocking 
for Afghans, and exposed clearly their vision of themselves as the 
rightful rulers of our people. They may have temporarily closed down 
their office to protest demands that they stop calling themselves the 
Emirate, but that again shows how central to their movement is this 
notion of themselves as a ``government in waiting.''
    The Taliban have not become a ``moderate'' group, they remain 
draconian, highly ideological and are, in fact, becoming more and more 
extreme in their attacks on innocent civilians. The Taliban have never 
categorically said that they will respect human rights and women's 
rights, or that they are committed to furthering the progress in this 
field. Nor do they show any sign that they are ready to engage in the 
political process--which would mean respecting a (man-made) 
constitution, and accepting defeat at a ballot box.
    U.S. actions in Doha, therefore, risk undermining the proud 
sovereignty and fragile authority of the Afghan Government. As this 
Afghan Government has been supported by the United States, it also 
undermines the credibility of American foreign policy.
    This is not to say that we in Afghanistan are against the Taliban 
joining mainstream politics. We would welcome that with tears of joy--
there are one or two former Taliban who participate peacefully in our 
Parliament--more would be welcome. However, we cannot entertain a 
political process wherein the Taliban refuses to denounce violence, 
rejects the constitution, and maintains relations with al-Qaeda and 
other dangerous regional networks.
    The United States should also be very wary of playing into 
Pakistan's hands, in particular the designs of the Pakistani military, 
which treats the Afghan people as expendable pawns in their bigger 
contest with India.
    Throughout the past decade there have been genuine efforts by the 
Afghan Government and its international partners--including the United 
States--to gain the support of the Pakistani Government in a peace 
process, but hard facts suggest that elements in the Pakistani state 
continue to prove that they are not faithful partners.
    The Government of Afghanistan has also until recently failed to 
provide a clear path toward peace. They do not seem to have a clear 
sense of the end goal, they allow multiple tracks and institutions to 
engage in the process, creating confusion among the people, and among 
those elements within the Taliban that might be serious about peace. 
The government has also failed to build a consensus among different 
sectors of society about a path to peace--a precursor to an inclusive 
and sustainable peace process.
    Such a process is likely to take time and patience. Those who are 
rushing to this track seem to feel that the alternative is civil war. 
Most Afghans fear the shadow of civil war, but it is far from 
inevitable. We must ask you not to look at Afghanistan with the lens of 
the 1990s where the only contest is between the warlords and the 
Taliban.
    The new Afghanistan is changed--citizens want jobs for themselves 
and schools to be built for their children. This Decade of Transition 
has exposed even our warlords to far more attractive horizons--where 
peace and prosperity have been made possible. The overwhelming majority 
of Afghans does not identify with warlords or the Taliban--and will not 
be carried by either group--but are forging new political identities 
and platforms.
    We need to focus on the great test of the constitution that lies 
ahead of us in 2014--because really the political settlement is the 
constitution. Building upon it, building upon the center, and upon the 
wishes of the majority, is the real and the sustainable path to peace. 
Anything else is short-lived and will not ensure lasting peace for the 
people.
    If we have a new government, which reaffirms our commitment to our 
constitutional order, backed by the Strategic Partnership Agreement and 
a new Bilateral Security Agreement, we create the right incentives for 
the Taliban and Pakistan to rethink their strategy. I'm confident that 
these conditions might lead to a Pakistani and Taliban strategy that is 
more conducive to peace.
    What can be done, at this point, when so many mistakes have been 
made?

    (1) The U.S.G--in particular the office of the Special 
Representative, Ambassador Dobbins--should focus on political 
transition in this critical moment. The next Afghan Government will 
have a far stronger mandate and the energy to play this role.
    (2) The United States should immediately halt any talks or 
preliminary negotiations with the Taliban until the latter has 
expressed firm commitment to engage with the Afghan Government.
    (3) The United States should not engage in any talks or preliminary 
negotiations until the Taliban cease their deliberate attacks on 
civilians. ``Talking while fighting'' may be common in many peace 
processes, it is not standard practice to talk while one side is 
consistently carrying out what might amount to war crimes.
    (4) If talks do begin in earnest, the U.S. priority should be 
working with the government to secure firm commitments from the Taliban 
that they would renounce violence and seek power through the democratic 
system, they would respect the Afghan Constitution, respect human 
rights, in particular women's rights, including women's right to work 
and participate in the political system.
Cementing the Security Transition Will Preserve Gains and Provide 
        Lasting Stability
    Let me now take a closer look at the achievements and challenges of 
our security transition. In October 2012, Afghanistan exceeded its goal 
of having a 350,000-troops strong Afghan National Security Forces. Many 
Afghans want to join the ANSF to defend their own country. This is a 
magnificent achievement--just 6 years ago the total ANSF was not even 
80,000 and recruitment was a problem.
    With this impressive force, Afghan leaders have been able to take 
responsibility for leading security in Afghanistan, with less and less 
reliance on the NATO-led International Security Assistance Forces 
(ISAF). This shift toward Afghan leadership has not been accomplished 
overnight and has not been easy. But as an Afghan whenever I see our 
young men and some women in uniform I feel secure and proud, Mr. 
Chairman. For most Afghans in their 30s and older are seeing this 
uniformed national security force, carrying their country's flag, for 
the first time in their lives. Our forces show steady improvements in 
their capacity and their courage, as demonstrated by recent attacks in 
our capital that were swiftly closed down with minimal disturbance for 
our citizens.
    The people of Afghanistan welcomed the successful completion of 
transition. However, we recognize that these achievements come despite 
enormous challenges that still need to be addressed. There is still 
great doubt as to whether ANSF is capable of continuing this progress 
after 2014, given the challenges we face. For example, without 
``coalition enabler'' support, there is a risk that the ANSF are facing 
severe limitations. The Afghan Air Force is not yet in place, and air 
capacity is just at the beginning of development. Our people want to be 
in the Air Force, but they need time to develop the technical skills 
required. In addition, a basic essential service like medical 
evacuation is not yet in place. With a high attrition rate and literacy 
levels requiring time to improve, the ANSF is under great pressure. 
There are also shortcomings in transportation, logistics, and 
equipment. Technical knowledge, like counter-IED and military 
intelligence is growing, but slowly.
    On top of all this, our brave forces are not yet supported by a 
commander in chief they deserve. A number of military officers told me 
that morale is significantly affected because their commander in chief 
still cannot define who the enemy is, and who his brother is. Mr. 
Chairman, we are aware as Afghans that the task of choosing the right 
commander in chief is solely ours, and I am confident that the nation 
has learned hard lessons to be able to make the right decision in this 
coming election. We Afghans know our forces are now fighting bravely, 
sacrificing themselves, being killed and wounded, for the defense of 
their own country. But they need continuing help. They need help not 
just to keep fighting, but to make sure that they are a responsible, 
accountable military that works for the good of the people, and that 
dangers such as corruption, abuse of the people and seeking political 
power do not arise. Both Afghans and Americans want an Afghan military 
that we can be proud of.
    Finalizing the Bilateral Security Agreement is of paramount 
importance. It will give confidence in the political and ensuing 
economic transition. It will mutually benefit Afghanistan and the 
United States as the partnership against terrorism is cemented, and it 
will preserve the gains we worked so hard for and sacrificed so much 
for in the past decade. At this point, Afghans want to be assured of 
the U.S. commitment to Afghan independence, security, and respect for 
the constitution. In return, the Afghan people will partner with the 
United States in building a country that is a productive part of the 
world community and an ally in an uncertain region. The Afghan 
Government will afford the United States access to military bases and 
partner with the United States in necessary counterterror operations. 
Afghans from different walks of life have echoed their endorsement of 
the strategic partnership between Afghanistan and the United States, 
including a Loya Jirga and the Afghan Parliament. The rhetoric, Mr. 
Chairman, which you hear from some of our political leaders, is far 
from what the majority of Afghans desire. Most of those I speak with--
not just the educated elites but average rural Afghans in remote 
parts--are voicing their strong sense of anxiety, caused by delays in 
signing of the BSA. We want to move forward with the United States as 
our primary ally.
    Based on this brief outline, there are a few steps to be taken to 
support the security transition:

    (1) Prioritize signing a Bilateral Security Agreement.
    (2) As part of the Chicago Commitment, provide resources and 
technical support to the Afghan Air Force for the time necessary.
    (3) Maintain the minimum level of international air power support 
until the Afghan Air Force and medical evacuation teams are ready to 
take on the job themselves.
    (4) Continue to provide the necessary advice, support, training and 
capacity-building for the ANSF through 2014 and beyond from literacy 
campaigns, to recruiting all ethnicities and women, to technical 
vocations, so that the ANSF becomes and remains a professional and 
responsible military.
    (5) As committed to in the Strategic Partnership and by NATO in 
Chicago last year, maintain the financial and material support 
necessary for the continued development of the institution of the army, 
police and intelligence.

    In the last several years many Afghans like myself have been 
enormously reassured to see the great strides our military has taken, 
and remain indebted to the United States and our NATO allies for their 
assistance in training and financing our security forces. We appreciate 
that there must be a limit to this heavy burden for you, and this is 
not a request for open ended support, but we humbly request that you 
continue your support until the ANSF can not only manage, but truly 
lead security across the country.
    While I stress the importance of our military becoming a capable, 
well-resourced and trusted institution, I recognize that we need an 
equally capable and well-resourced civilian government, in order to 
avoid the fate of some countries in our region.
    After this decade-long strategic partnership, with all its 
successes and sacrifices, now is not the moment to squander the 
achievements and possibilities that are within reach today, because of 
short-term frustrations or gains. Nor is it the moment to chase after 
quick deals, when we're so close to getting a new government with a 
fresh mandate, which will be capable of bringing all Afghans with it to 
reach a lasting and inclusive peace.
    Thank you, Senator Menendez and all the committee members for your 
continued engagement and interest, and for giving me the opportunity to 
provide frank testimony at this important time.

    The Chairman. Well, thank you all for your testimony.
    We have a universal agreement that these elections are very 
important. Now, if you had the power, Mr. Hadley, to say this 
is what the United States should be doing right now with the 
Afghan Government to ensure the most honest, transparent, and 
fair elections possible, what would your answer be?
    Mr. Hadley. We need to put pressure on President Karzai but 
really to encourage all aspects of the Afghan system to put 
pressure on Karzai and the Parliament to get this legislation 
enacted and to get the people appointed. That is point one.
    Secondly, we in our statements have to make it clear that 
this election is the top priority. I think a lot of Afghans 
thought that reconciliation with the Taliban was our top 
priority. This should be our top priority. It is our top 
priority. We have not made that clear.
    Third, I would agree the election needs to be part of a 
broad-based reconciliation with all aspects of Afghan society 
which largely feel alienated. That is what this election can 
do. That will empower the Afghan Government. At that point 
after the election, an empowered government supported by its 
people, having international import, backed up by an army that 
is willing to fight for that government, then you can talk 
about having some conversation with Taliban to see those that 
are willing to come out of the fight and give up violence and 
then let the Afghan Army deal with the rest.
    And I think at that point, Pakistan will accept that deal. 
Pakistan, I think, has given up the notion that the Taliban are 
going to take over in Afghanistan. I think Pakistan now feels 
that an unstable Afghanistan threatens Pakistan which is seeing 
a high level of violence, and I think that Pakistan will lower 
its objective and accept some kind of outcome as long as there 
is some kind of Taliban role.
    But the critical thing will be to have, you said, an 
empowered, fairly elected, legitimate government supported by 
the Afghan people that can reconcile all of Afghan society. 
That is the critical element to achieve the things that Mr. 
Nadery has talked about.
    The Chairman. Mr. Nadery, I appreciate hearing the words 
``thank you'' because that is something President Karzai never 
seems to be able to say.
    With reference to your own view, what would you want the 
United States to do to help you achieve the type of elections 
that the Afghan people will have faith in?
    Mr. Nadery. Well, I will endorse what Mr. Hadley said just 
about the election, but to add on that is one of the critical 
things is the type of messages that both the Afghan political 
leadership and the public receives starting with raising the 
bar higher than what was discussed in the past. It means 
emphasize, as much as you can, on those processes and the 
principle of those processes, which means what kind of a free 
election and fair election you want to see being there. That 
message needs to remain consistent throughout. We were grateful 
to hear recently that Secretary Kerry changed the message from 
``credible'' election to making it specific, ``free and fair.'' 
That matters especially before the election. So do not raise 
the bar lower. Keep it high--as high as is possible before the 
election so it can send the message to those who are preparing 
for whatever possible end of the election to not be there.
    Second, continue the technical assistance both to the 
institution of the Election Commission, especially on the fraud 
mitigation measures. There are a large number of expertise and 
lessons learned in the past. That needs to be translated there 
in action to those in institution, including make sure that you 
are pressing for more international observers, including 
support for domestic election observers on the ground, but the 
election issue needs to remain a consistent priority and the 
messages that go need to match those issues of priority coming 
from your government to our government and our President. So no 
preparation or plots that are being in some corner of our 
government for a delay of the election or a cancelation of the 
election to work.
    The Chairman. I would like to ask this to all of you, more 
of a comment. You know, I read the article in the New York 
Times and I said this is certainly unfortunate and not 
positive. By the same token, I think that President Karzai 
somehow thinks that he has some leverage with us over this 
issue. Somehow he thinks that a zero option is not a 
possibility, so therefore we will have to somewhat be held over 
the barrel at the end of the day to what is this final 
negotiating opportunity. And I think the one thing that he 
should understand is that that is not beyond the possibility if 
we cannot get a bilateral security agreement.
    How do we disabuse President Karzai of the belief that this 
is something to negotiate with? I mean, negotiating an 
agreement is understandable, but there is a difference between 
negotiating an agreement and using the agreement as an effort 
to leverage whatever he is seeking personally for his future, 
his security living in Afghanistan, what comes along with his 
influence, whatever. I get a sense that the flip side of this--
we talk about the United States not making it clear, and I 
think we should make it all clear. I think we have made it very 
clear that we intend to stay. By the same token, we cannot be 
held hostage by President Karzai.
    Mr. Hadley.
    Mr. Hadley. It may have started by someone as an effort to 
kind of negotiate with Karzai and to say, you know, we really 
could pull them all out. The problem is the multiple audience 
problem and it dismayed the rest of the country and caused a 
loss of confidence. And so that I think was a terrible mistake.
    I think he is using the bilateral security agreement, and 
that is why my suggestion is to make a clear commitment of a 
specific, substantial number, say this is what we are going to 
do to reassure the rest of the country, and then say to Karzai, 
and we would love to negotiate it with you, but if we cannot 
negotiate it with you, we will negotiate it with the folks who 
come in after the election. That takes the stick away from him 
and takes the leverage away from him.
    And I think the combination of those two things, in the end 
of the day, will lead him to come to the table and negotiate an 
agreement because I think he wants that to be part of his 
legacy. I do not think he wants to leave it to the next 
government.
    So that is what I would try, but it is a very frustrating 
situation, but that is what I would try.
    The Chairman. Ms. Chayes.
    Ms. Chayes. Yes, thank you and I am going to have to go in 
just a minute.
    I would just like to second that. In fact, I would not say 
maybe we would do it after. I would just pause those 
negotiations. I would do the same thing, say the intent of the 
United States is to leave a troop presence after 2014 in the 
order of X, but we will resume these negotiations after the 
election.
    Mr. Nadery. I fully agree with both of the speakers on that 
front. But just to add again and reemphasize the point that you 
hear an entirely different message from the rest of the 
Afghans, including the Afghan Parliament, compared to what 
President Karzai says. There is an overwhelming majority of 
support for the bilateral security agreement endorsement and 
adoption. And therefore, it needs to be a multilayer of 
messaging and engagement both with the Afghan Parliament and 
also with other stakeholders on the ground. And therefore, not 
to pause the bilateral security agreement negotiation. It needs 
to continue with the knowledge that a ``no'' answer should not 
come, making a clear message and communication to the President 
that if he is not signing it, the next administration with the 
popular support of the public are going to achieve and it will 
not be his legacy but will be a legacy of the next government 
which will have the popular support of the public.
    The Chairman. Senator Kaine, if you have a question for Ms. 
Chayes, if you would give it to her first because she has got a 
speaking engagement and she has been hanging in here.
    Senator Kaine. I will. And, Mr. Chair, you asked all my 
questions almost. But just a threshold one and maybe Ms. Chayes 
could start first.
    Just a threshold question. You know, what is your 
perception about the degree of support in the Afghan population 
for a United States residual force post-2014?
    Ms. Chayes. I would agree with Mr. Nadery. Very high.
    Senator Kaine. Mr. Nadery.
    Mr. Nadery. Well, a good indication of looking into that 
would be all the discussion that have happened when there was a 
final decision was going to be made at the time on the strategy 
partnership agreement. The overwhelming support on the floor in 
the Afghan Parliament, the overwhelming discussion and support 
throughout Afghan civil society and broader in the provinces in 
support of the strategy partnership is a very clear indication 
of a continued partnership with the United States.
    Whenever there is a discussion about a zero troop option or 
a withdrawal, you hear a higher degree and a higher sense of 
anxiety and fear in the Afghan population. That creates further 
uncertainty about their future, and that need itself makes and 
drives a lot of support for a residual number of troops on the 
ground. And that need to be looked in a way that it needs to 
be--if the numbers are not coming right away, but at least it 
need to be announced in a way that it is tailored to the needs 
on the ground. If insecurity increases significantly and Afghan 
forces are fighting hard but needs more support, that number of 
troops will be tailored that way. And definitely we hope that 
we take more responsibility. We are going to fight for our own 
country and, therefore, the numbers will be corresponding to 
those needs for the support role in those areas that we need. 
At this stage, the numbers will definitely make a huge 
psychological confidence-boosting and building role.
    Senator Kaine. And the last question, Mr. Hadley, because 
you have really already answered the question I just asked in 
your written testimony. But in Afghanistan, sort of what I 
heard was the two bad narratives would be United States 
abandonment or United States occupation. And so what we are 
doing is attempting to establish a residual force that is 
clearly not an occupying force and that is clearly not an 
abandonment strategy. From your professional judgment based on 
what you are hearing in terms of the military leadership about 
what the size of that force would be, which is sort of a 
combined U.S.-NATO force, is the kind of range you are hearing 
discussed a range that you generally feel is acceptable?
    Mr. Hadley. I think the word is it is an ``enabling'' force 
that 
enables the Afghans to take full responsibility. That is how we 
should see it.
    I think it should be mission-driven, not just an abstract 
number. Ron Neumann, who is our former Ambassador, tried to do 
that. He did sort of a mission-driven.
    I have a lot of respect for General Mattis, and my guess is 
that if you do that mission-driven, which probably he did it, 
you know, you are at a number that in the 15,000, not in the 
9,000. And if you add 4,000 or 5,000 NATO troops, which is what 
people are talking about, that gets you a 20,000 number. That 
ought to be probably roughly adequate to do the mission. But 
again, I am no mission planner, but you asked me to read the 
tea leaves. That is kind of how I read them.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Well, thank you both for your testimony. It 
was invaluable. Thank you for traveling all the way from 
Afghanistan on short notice to be here. It was very helpful, 
insightful.
    The record will remain open till the close of business 
tomorrow for any members who wish to submit questions.
    And with the thanks of the committee, this hearing is 
adjourned.
    [Whereupon, at 12:03 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


    Responses of Special Representative James Dobbins to Questions 
                  Submitted by Senator Robert Menendez

    Question. Afghanistan's elections in 2014 and the ensuing political 
transition are a critical piece in the success of the security 
transition to Afghan forces. Without free, fair, transparent, and 
credible elections, many of the efforts and sacrifices made by so many 
Americans and Afghans will have been for naught.

  <bullet> What can the United States do better to convince Afghans 
        that the 2014 elections and political transition is our top 
        priority in Afghanistan?
  <bullet> In your opinion, what would constitute a ``credible'' 
        election to the Afghan people?

    Answer. The 2014 elections are the top political priority for our 
mission in Kabul and our diplomats understand that the 2014 
Presidential election will determine the future stability of 
Afghanistan and the region. The Embassy regularly consults with Afghans 
throughout the country and stresses the importance of a successful 
political transition. Assistant Chief of Mission Ambassador David 
Robinson is the Embassy's primary point of contact on elections. He 
meets almost daily with Afghan Government officials, political party 
leaders, Afghan National Security Force commanders, civil society, and 
international partners to assess progress on elections and deliver 
consistent U.S. policy messages on all aspects of planning for this 
historic event. Secretary Kerry, who has direct experience with 
Afghanistan's 2009 Presidential election, has made the 2014 political 
transition one of his top priorities. He has raised this issue in all 
his conversations and meetings with President Karzai and other high-
level Afghan officials, most recently in Kabul in March and in Brussels 
in May, as Deputy Secretary Burns did during his May visit to Kabul. I 
also discussed the elections during my meeting with President Karzai on 
May 29.
    Ultimately, Afghans themselves will have to determine what 
constitutes a ``credible'' election. However, the general sense we see 
is that Afghans want a free, fair, inclusive and unifying election that 
reflects the will of the people and reaffirms Afghanistan's democratic 
progress and the Afghan people's strong desire for a future shaped by 
democratic politics, not violence. Increased participation and reduced 
fraud will help to ensure a credible result. It is up to the Afghan 
people to elect a President they hope will best represent all of 
Afghanistan.

    Question. As we saw in Iraq, a coordinated interagency transition 
strategy for Afghanistan will be critical to avoid the risk of 
duplication or working at cross-purposes. Additionally, oversight of 
U.S. reconstruction funding is a priority in transition planning. For 
example, USAID intends to use third-party monitors to oversee its 
programs and projects, although we don't have data to know whether this 
would be a reliable mechanism.

  <bullet> Does the U.S. Government have a coordinated interagency 
        strategy for transition in Afghanistan? If so, who is in charge 
        of this planning effort? Is it coordinated with coalition 
        partners and the Afghan Government? Has it applied lessons 
        learned from Iraq?
  <bullet> Is oversight of civilian assistance being considered in 
        transition planning? If so, specifically how are the State 
        Department and USAID making oversight a priority?

    Answer. The term ``transition'' in Afghanistan refers to a number 
of separate but interrelated processes occurring over the next 2 years 
and beyond. We often cite the security, political, and economic 
transitions as the three key issues for U.S. foreign policy in 
Afghanistan. In addition, the internal USG transition from a military-
led to a civilian-led effort in Afghanistan is a critical priority and 
creates a large number of required actions and challenges, including 
planning for ongoing operations, management of assistance, and 
continuation of necessary diplomatic engagement. Given the broad and 
complex nature of these transitions, no single strategic document 
covers all aspects of the issue. Overarching strategic documents, 
including the U.S.-Afghan Strategic Partnership and the Civil-Military 
Strategic Framework, provide guidance to our efforts in support of the 
various transitions. In addition, the National Security Staff hosts 
regular interagency policy meetings to develop strategic guidance on 
transition issues.
    Earlier this year, in order to consolidate the policy and 
management aspects of the upcoming transitions into a single entity, 
Embassy Kabul combined the existing Transition Office, which was under 
the Coordinating Director for Development and Economic Affairs, and the 
Management Transition Office into a single Transition Office. The new 
office, led by two Senior Foreign Service officers, reports directly to 
the Ambassador and covers all aspects of transition including 
coordination with other agencies, other countries, coalition military, 
and the Afghan Government.
    The implementation and oversight of civilian assistance programs is 
a central part of our ongoing transition planning. The Embassy 
Transition Office is working closely with all U.S. implementing 
agencies and plans to systematically review existing assistance 
programs to assess how they contribute to our foreign policy goals and 
examine whether and how they will continue to operate after the 2014 
security transition. A key question in this analysis is whether the 
implementing agency will be able to provide adequate oversight and 
monitoring with potentially less access to project sites outside of 
Kabul. The Transition Office has developed, and the Ambassador set as 
Embassy-wide policy, a forward-looking program monitoring and oversight 
framework that envisions using third-party monitoring as a tool to 
support, but not replace, inherently governmental oversight functions. 
The Mission Policy on Monitoring and Evaluation directs agencies and 
sections to establish clear mechanisms for effective monitoring post-
2014, and specific tripwires for deciding when projects should be 
postponed, put on hold, or terminated. The Embassy continually 
reevaluates projects and programs based on these criteria. USAID, INL, 
and other offices are currently building their post-2014 portfolios 
and, with the help of advanced planning, are integrating multilayered 
and technological solutions to address the upcoming implementation and 
monitoring challenges. For example, USAID has developed an innovative 
remote monitoring policy that incorporates best practices from other 
challenging operating environments, such as Iraq and Pakistan. The new 
policy calls for a multilayered approach that uses third-party 
monitors, technology including satellite imagery and mobile technology, 
surveys, and other methods to augment the monitoring information 
available to government oversight officials.
    In addition, Embassy Kabul has merged the two coordination offices, 
the Coordinating Director for Development and Economic Assistance 
(CDDEA) and the Coordinating Director for Rule of Law and Law 
Enforcement (CDROLLE) into one Coordination Directorate. This merger 
will further enhance synergies between the multiple agencies and 
sections working in Afghanistan and provide overarching policy 
direction in a whole-of-government approach. It will further facilitate 
and enhance the Embassy coordination with the military as security 
transition proceeds through its final phase. This new office will also 
coordinate oversight and monitoring across the various agencies in 
accordance with the aforementioned Embassy-wide policy. While each 
agency and section has unique authorities and responsibilities for 
oversight of their programs, the Coordination Directorate will ensure 
that maximum efficiencies and effectiveness are achieved across the 
various programs.
    Though the transition processes in Iraq and Afghanistan are 
different in a number of significant ways, we agree that there are 
lessons to be learned from our experiences during the transition in 
Iraq. As such, we have facilitated regular conversations between the 
offices covering Iraq and Afghanistan in the Department of State and 
USAID to identify best practices. For instance, we learned from our 
Iraq experience to begin planning early and to establish clear 
implementing roles for each agency. As a result we started major 
planning for the Afghanistan transition early last year, more than 2 
years in advance of the security transition, and we have defined a 
clear mission for the Department of State, USAID and the Department of 
Defense in the Strategic Partnership Agreement and in policy statements 
from President Obama and other administration leadership. We also have 
purposefully sought out veterans of the Iraq transition to fill key 
positions in the Department and at USAID overseeing the transition 
process in Afghanistan. In addition, we have increased collaboration 
with the Afghan Government and civil society in the design of our 
assistance programs to improve sustainability.

    Question. In recent months, the Special Inspector General for 
Afghanistan Reconstruction has issued a number of troubling reports 
about our reconstruction efforts in Afghanistan. Through its audit and 
inspection work, SIGAR has identified numerous examples in which the 
United States created a program or built a facility without 
consideration as to whether the Afghan Government could sustain it.

  <bullet> Which programs and projects funded by the State Department 
        and USAID are least likely to be sustained by the Afghan 
        Government?
  <bullet> What steps is your office taking to respond to the many 
        problems SIGAR has identified and increase oversight 
        responsibilities of civilian assistance in Afghanistan?

    Answer. As we approach the 2014 security transition the emphasis of 
all of our civilian assistance programs is shifting toward sustainable 
development and away from the construction of infrastructure and quick 
impact projects designed to achieve immediate stabilization impacts. 
Our goal is to achieve sustainable, positive results in Afghanistan 
without disproportionately increasing the future burden on the Afghan 
Government. In fact, the majority of Department of State and many USAID 
programs are not provided through the government and will not require 
any sustainment effort from the government. For example, we are 
investing in the empowerment of Afghan women and providing significant 
support to the Afghan private sector. Of course, some of our previous 
and future investments including work to improve infrastructure, 
health, and education services, and other programs will require support 
from the Afghan Government in order for the benefits to be sustained. 
We work closely with the Afghan Government as programs are designed, 
implemented, and completed to ensure the government has the necessary 
capacity to maintain these programs, understands the costs associated 
with them, and has committed to provide the necessary resources. It is 
our goal to ensure that each major investment in civilian assistance is 
followed up with the resources necessary to maintain the progress that 
U.S. assistance has facilitated over the last decade.
    We welcome the role played by the Special Inspector General for 
Afghanistan Reconstruction (SIGAR) in identifying weaknesses in our 
reconstruction programming and the potential for misuse of funds and 
offering solutions. We appreciate the insightful recommendations 
provided in SIGAR audit reports and in each case seriously review 
recommendations and how we can best apply them. We respond to each 
SIGAR audit report with specific comments on recommended actions and in 
most cases describe how we will or have already implemented 
recommendations. Additionally, when SIGAR provides actionable 
information, we take action. We share SIGAR's goal of safeguarding U.S. 
taxpayer resources from fraud, waste, and abuse, and are committed to 
the most effective uses of those resources in advancing our Nation's 
national security through assistance programs in Afghanistan.
                                 ______
                                 

    Responses of Special Representative James Dobbins to Questions 
               Submitted by Senator Robert P. Casey, Jr.

    Question. On July 9, the Senate unanimously passed S. Res. 151 
which urges the Secretary of State to condition financial, logistical, 
and political support for Afghanistan's 2014 elections based on the 
implementation of reforms in Afghanistan including----

  <bullet> Increased efforts to encourage women's participation in the 
        electoral process, including provisions to ensure their full 
        access to and security at polling stations;
  <bullet> The implementation of measures to prevent fraudulent 
        registration and manipulation of the voting or counting 
        processes; and,
  <bullet> Prompt passage of legislation through the Parliament of 
        Afghanistan that codifies the authorities and independence of 
        the IEC and an independent and impartial election complaints 
        mechanism.

    How would you assess progress on each of these measures?

    Answer. The Independent Election Commission (IEC) has made a 
concerted effort to mainstream its gender strategy in its overall 
operational plan for the 2014 elections. For example, in preparation 
for the upcoming elections in 2014, the IEC Gender Unit has been 
actively involved in ensuring that gender is taken into consideration 
in all of IEC's electoral work. Despite challenges concerning the 
capacity of the Gender Unit, the IEC has undertaken strategies to 
encourage female voters to register, as well as to increase the female 
staff at IEC headquarters and provinces to conduct voter registration. 
The IEC continues to engage influential leaders, including religious 
leaders and women's networks, to create awareness about the importance 
of women's participation in the electoral process. The IEC has made 
clear that it will develop targeted messages for female voters and that 
it will ensure that gender is taken into account in all of its 
messaging, in order to promote a gender-sensitive voter education 
approach. This is intended to promote inclusiveness and transparency in 
the electoral processes, and to safeguard the fundamental right to vote 
for all eligible women voters. Similarly, with regards to staffing, the 
IEC is putting into place measures to ensure women's active role in the 
election administration structures, including: female trainers; female 
voter educators; and voter registration and polling staff.
    We are working closely with the Afghan authorities to support their 
efforts to implement safeguards to prevent fraud, address fraud where 
it occurs, and improve people's ability to cast their ballots freely. 
The IEC's Operational Plan includes strengthened fraud mitigation 
procedures, developed from lessons learned from past electoral cycles. 
Some of these procedures, which the IEC is actively implementing, 
include: improved monitoring and tracking of ballots and ballot boxes; 
transparent vote counting and distribution of preliminary tally sheets 
at polling centers, and; double-blind counting procedures.
    A credible legal framework will help ensure a good election as well 
as the full legal participation of all Afghans. The establishment of an 
electoral framework through broad consultation and compromise is 
critical. Separate joint committees of the two Houses of Parliament are 
currently reconciling competing versions of the IEC Structure Law and 
Electoral Law. Parliamentarians are confident that they will be able to 
reconcile the laws and pass them for President Karzai's signature 
before Parliament's July 23 recess. We look forward to President 
Karzai's approval of both laws, and the swift implementation of these 
laws. We will continue to support Afghanistan's independent electoral 
institutions, civil society, and the people as they prepare for these 
elections and take the necessary next steps to advance the electoral 
process and ensure independent and credible appointments to the IEC and 
Electoral Complaints Commission.

    Question. Since the creation of the Special Representative's office 
(SRAP), I have been concerned that we have been paying insufficient 
attention to India-Pakistan dimensions in the region. Our bureaucracy 
has created artificial silos so that the Afghanistan and Pakistan 
offices at the State Department and USAID are separated from the rest 
of South Asia, even though there are technically bureaucratic linkages 
between them (i.e., dual-hatted positions).

  <bullet> What steps will you take to ensure greater coordination and 
        integration of efforts regarding our Pakistan and India 
        policies and personnel?

    Answer. Our relationships with India and Pakistan are both vital 
components of U.S. foreign policy in Asia. The President has identified 
our relationship with India as one of the defining partnerships for the 
21st century, a partnership that is a key to our Rebalance in Asia. Our 
relationship with Pakistan is also of prime importance to our efforts 
to promote regional stability and economic prosperity. These two 
relationships both stand on their own merits, and we seek to ensure 
that productive engagements with each country do not come at the 
expense of the other. Nevertheless, we also recognize that Pakistan and 
India have their own bilateral relationship, and the progress of that 
relationship is vital to U.S. interests in the region. We are 
encouraged by the positive tone that has emerged in recent months 
regarding relations between the two countries, and hope that this 
progress continues, including on normalizing trade policies and 
economic engagement, security issues, and people-to-people exchanges.
    In order to advance our objectives in the region, SRAP works hand-
in-hand with colleagues in the Bureau of South and Central Asian 
Affairs (SCA) to shape policy and coordinate messaging. In fact, a 
number of these officers have firsthand experience working with or in 
both India and Pakistan. We also work closely with our interagency 
colleagues, including the Department of Defense, the National Security 
Staff, and the U.S. Agency for International Development, to ensure a 
diversity of viewpoints and analytical techniques enhances our ability 
to address regional issues in a holistic manner.
                                 ______
                                 

    Responses of Special Representative James Dobbins to Questions 
                    Submitted by Senator Jeff Flake

    Question #1. The Washington Post reported on July 9 that, ``In 
northern Afghanistan, the State Department last year abandoned plans to 
occupy a large building it had intended to use as a consulate. After 
spending more than $80 million and signing a 10-year lease, officials 
determined the facility was too vulnerable to attacks.'' The report 
also details a $34 million new military headquarters in Afghanistan 
that ``commanders in the area, who insisted 3 years ago that they did 
not need the building, now are in the process of withdrawing forces and 
see no reason to move into the new facility.'' This example, in 
addition to the other egregious examples of wasted taxpayer dollars 
outlined in the report are unfortunately reminiscent of what we saw 
with regard to Iraq reconstruction projects, as well.

  <bullet> a. After commanders in the area said 3 years ago that they 
        had no interest in the facility, why was construction continued 
        on it? Who foisted the building on those commanders? What was 
        the decisionmaking process on this and who was ultimately 
        responsible for approving construction of the facility?

    Answer. This question is not within the purview of the Department 
of State. The Department defers to the Department of Defense to 
respond.

  <bullet> b. Three years ago when this facility began construction, 
        discussions about withdrawal from Afghanistan had already begun 
        inside the administration. What considerations were given to 
        any potential withdrawal when plans to construct this facility 
        began?

    Answer. This question is not within the purview of the Department 
of State. The Department of State defers to the Department of Defense 
to respond.

  <bullet> c. How is the State Department using the lessons learned 
        from Iraq reconstruction to put a better, less expensive foot 
        forward in post-war Afghanistan?

    Answer. The White House has not yet determined the scale and shape 
of the post-2014 footprint. However, in developing the possible 
options, the State Department has incorporated lessons learned from 
Iraq to ensure we leverage existing U.S. Government capabilities where 
possible. We have established an Executive Steering Group with the 
Department of Defense to coordinate planning efforts, logistics 
requirements, and possible solutions for potential areas of concern.

  <bullet> d. Are the Departments of Defense and State collaborating on 
        the use of existing infrastructure in Afghanistan to minimize 
        costs going forward?

    Answer. Yes, the Department of State and Department of Defense 
continue to work closely, including through the colocation of civilian 
staff with military forces throughout Afghanistan. Post-2014 plans are 
based on military support to the civilian mission, leveraging existing 
infrastructure where possible for cost savings, in order to provide 
those critical functions or services that civilian agencies cannot 
perform themselves.

  <bullet> e. To what degree is the State Department consulting the 
        Government of Afghanistan over what its infrastructure needs 
        are and what it can support?

    Answer. The State Department has no plans to transfer any of its 
existing civilian facilities to the Government of Afghanistan; however, 
the United States remains committed to ensuring the Afghans have the 
required capacity to properly maintain facilities constructed by U.S. 
development programs.

    Question #2. The Inspectors General for Reconstruction in Iraq and 
Afghanistan, respectively, have identified many projects that spent 
millions of U.S. taxpayer dollars and yet despite these investments, 
the projects have failed or are near failure. In Iraq, for example, a 
wastewater treatment plant built in Fallujah ``was constructed at great 
cost but to little effect,'' according to the Inspector General, 
serving, ``only a fraction of those intended.'' That project cost $99.8 
million. In Afghanistan, the Inspector General found that an investment 
of $18.5 million by USAID in two hospitals ``may not be the most 
economical and practical use of funds,'' because ``USAID did not fully 
assess the Ministry of Public Health's ability to operate and maintain 
these new facilities once completed.''

  <bullet> a. To what degree is consideration given to the host 
        country's ability to maintain facilities such as these when the 
        United States turns them over?

    Answer. As Afghanistan becomes more stable, assistance activities 
in Afghanistan are shifting from shorter-term stabilization activities 
to efforts increasingly focused on systematic, long-term improvements 
that are Afghan-led and sustainable. The Department of State and USAID 
are committed to ensuring that assistance programs achieve sustainable 
results in Afghanistan. Likewise, we share the Afghan Government's goal 
of increasing Afghanistan's self reliance and decreasing the country's 
dependence on foreign aid. The ability of the recipient government to 
maintain U.S. Government-constructed facilities is among the first 
questions asked in the program design process and a required discussion 
with recipient government counterparts. A number of laws, regulations 
and guidance documents require project sustainability be considered 
prior to project initiation. The international donor community and the 
Afghan Government are taking more concerted steps to build capacity of 
the Afghan Government to operate and maintain facilities. This includes 
an initiative through the World Bank's Afghanistan Reconstruction Trust 
Fund to incentivize policy and operational reforms and encourage 
increased domestic spending on operations and maintenance (O&M). The 
Ministry of Public Health is to be one of the first ministries to 
benefit from this program, as it has made substantial progress to meet 
O&M demands. This progress includes the development of a norms-based 
O&M policy, an asset registry, and demonstrating increased O&M 
spending. Although it was not in place at the time these hospitals were 
conceived, we use the USAID Administrator's 2011 Sustainability 
Guidance as an initial tool to ensure current U.S. Government programs 
achieve sustainable results. In fact, the annual foreign operations 
appropriation requires that the Secretary of State certify, prior to 
the obligation of funding, that funds will be used to support programs 
in accordance with the Administrator's Sustainability Guidance. In 
addition, section 611 of the Foreign Assistance Act of 1961 and the 
recently enacted section 1273 of the FY 2013 National Defense 
Authorization Act require a sustainability assessment and determination 
prior to the obligation of foreign assistance funding for 
infrastructure projects. As a result of these provisions and in 
furtherance of our goal of reducing Afghan reliance on foreign aid, we 
have incorporated sustainability into project design processes, and all 
major infrastructure projects are now subject to a sustainability 
audit.

  <bullet> b. Why didn't USAID fully assess the ability of the 
        Afghanistan Ministry of Public Health to manage this facility 
        before it was constructed? Is this typical of the way USAID 
        manages assistance projects?

    Answer. In USAID's response to Audit 13-9 by the Special Inspector 
General for Afghanistan Reconstruction (SIGAR) related to the 
construction of health facilities in Afghanistan, we noted our 
disagreement with the conclusion that the United States did not 
adequately consult with the Afghan Government prior to the construction 
of hospitals in Gardez and Khair Kot. The Afghan Ministry of Public 
Health was consulted throughout the construction cycle for both 
projects and has committed in writing to fund the operation and 
maintenance of both facilities after they are completed later this 
year. Furthermore, the Ministry of Public Health has made great strides 
in recent years in building its management and operational capacity. It 
successfully manages thousands of clinics around the country that 
provide health services to millions of Afghan citizens. We have no 
reason to believe the Ministry will not follow through on its pledge to 
manage these facilities and will continue to monitor to ensure Afghan 
officials are following through on their commitments.

  <bullet> c. The transition in Afghanistan will be operating during a 
        time of fiscal austerity in the United States. How do you 
        anticipate that the declining budgets of State and USAID will 
        affect these types of projects moving forward?

    Answer. Following last year's comprehensive review of the U.S. 
assistance portfolio in Afghanistan, it was decided that future 
assistance funds would focus more intensively than in the past on 
sustainable development, including inclusive economic growth and 
ensuring the Afghan Government has the necessary capacity to maintain 
the development gains achieved over the last 11 years. Examples of such 
programs include helping the National Highway Administration establish 
an operations and maintenance division. Health sector programs will 
focus on maintaining the current level of nationwide health service 
provision and health professional training. No construction of new 
health facilities is planned.

  <bullet> d. Will these projects be paid for using overseas 
        contingency operations funds?

    Answer. Per the draft FY 2013 653(a) allocations recently presented 
to Congress, all Economic Support Funds (ESF) resources for 
Afghanistan, except for programs in the family planning area, will come 
from the Overseas Contingency Operations account. Therefore, the 
administration will use these funds to support health and all other 
development programming. Afghanistan will require international 
assistance in the health sector for many years to come and we intend to 
continue our support for the health sector.

  <bullet> e. Has there been any effort inside State and USAID to learn 
        from past mistakes and avoid making them in the future?

    Answer. Yes. We are constantly reviewing the results of past and 
current projects to derive lessons for our future operations. Every 
year we review each of our projects in Afghanistan and produce a report 
of performance and results. In addition, we conduct regular portfolio 
reviews to ensure our programs are well aligned with our ongoing 
mission and with the goals of the Afghan Government. We use the data 
from these reviews and reports to evaluate the effectiveness of our 
programs and to design better programs in the future. For example, 
USAID has put in place a new policy restricting the type of mechanisms 
that may be used for construction services to ensure maximum agency 
oversight of construction projects as these require a greater level of 
scrutiny in challenging security environments.

    Question #3. Negotiations are underway for a bilateral security 
agreement between the United States and Afghanistan that would provide 
immunity for U.S. troops remaining in Afghanistan in a post-2014 
environment. According to CRS, ``observers report that negotiations 
have bogged down over Afghan demands for guarantees that the United 
States will adequately fund the ANSF for at least several years after 
2014.''

  <bullet> a. What kinds of guarantees is President Karzai looking for 
        and what does he believe to be ``adequate'' funding for the 
        ANSF?
  <bullet> b. What is the administration's position on providing 
        funding for the ANSF and how much of a sticking point will that 
        be in any ultimate agreement?

    Answer. The Bilateral Security Agreement (BSA) is another step in 
implementing our pledge to support a long-term partnership with 
Afghanistan as outlined in the Strategic Partnership Agreement, signed 
in May 2012, and evidenced through our statements at the Chicago NATO 
summit in May 2012 and the Tokyo International Conference on 
Afghanistan in July 2012. Since the launch of negotiations in November 
2012, we have made significant progress on achieving agreement in order 
to conclude the BSA. We will not comment publicly with regard to 
ongoing negotiations as the positions evolve through discussions. Our 
BSA lead negotiator, Ambassador Warlick, has provided regular briefings 
to Members of Congress, and has plans to brief the Hill in the coming 
days prior to the August recess. I or my team would be happy to provide 
a briefing again at any point.
    The United States supports the development of the capability and 
capacity of the Afghan National Security Forces (ANSF) to provide 
security and stability for Afghanistan. The administration has sought 
and Congress has provided annual appropriations through the Department 
of Defense to support ANSF development. The BSA is expected to be 
concluded as an executive agreement. As such, we are not discussing 
specific funding commitments as part of the BSA negotiations. Beyond 
2014, as agreed in the Strategic Partnership Agreement, the 
administration will seek funds from Congress on a yearly basis--after 
discussing needs with the Afghan authorities--in order to support the 
agreed upon efforts.
    These are not easy issues, but we continue to approach the 
negotiation in the spirit of partnership evidenced by our Strategic 
Partnership Agreement and our long-term commitment. We are working 
closely with the Afghans to develop a BSA that meets the needs of both 
our countries and confirms our enduring partnership for security and 
defense cooperation.
                                 ______
                                 

   Responses of Acting Assistant Secretary Peter Lavoy to Questions 
                  Submitted by Senator Robert Menendez

                      bilateral security agreement
    Question. There are two oversight issues that I feel should be 
included in the final text of the Bilateral Security Agreement (BSA). 
First, U.S. Government personnel need to be allowed to oversee U.S.-
funded programs and projects in Afghanistan and to monitor the use of 
direct assistance funds provided to the Afghan Government. If such 
provisions are not included, U.S. assistance to Afghanistan will be 
subject to significant risk of waste, fraud, and abuse. Second, U.S. 
negotiators should incorporate into the BSA a consistent, unified 
position on what the U.S. Government deems appropriate taxation of 
contractors supporting U.S. Government efforts in Afghanistan. A recent 
SIGAR audit report found that, since 2008, the Afghan Ministry of 
Finance has levied over $921 million in business taxes, and associated 
penalties, on 43 contractors that support U.S. Government efforts in 
Afghanistan, even though the contractors should be exempt from most 
taxation under U.S. bilateral agreements with the Afghan Government.

  <bullet> Are these oversight provisions being worked into the BSA, 
        and if not, why not?

    Answer. The Bilateral Security Agreement (BSA) currently under 
negotiation with Afghanistan, like the current U.S.-Afghanistan Status 
of Forces Agreement (SOFA), is an agreement that would provide a 
framework for DOD activities in Afghanistan after 2014. It would not 
cover the activities of any other U.S. department or agency. The BSA 
would preserve DOD's ability to conduct its activities, including 
provision and oversight of assistance to Afghanistan, in accordance 
with relevant U.S. laws and regulations. DOD remains strongly committed 
to its oversight responsibilities in Afghanistan, which include 
ensuring that any funds (such as Afghan Security Forces Fund funding) 
provided directly to the Government of Afghanistan by DOD are used 
appropriately and effectively to advance U.S. national security 
objectives.
    United States global SOFA policy and practice are to seek and 
enforce exemptions from taxation on all DOD activities, including that 
no taxes or similar charges be assessed on articles and services 
acquired in the host country by or on behalf of United States forces. 
This flows directly from the principle that one sovereign nation does 
not tax another sovereign nation when partnering for mutual benefit. 
The BSA, like the 2003 SOFA, is being negotiated consistent with this 
global SOFA policy and practice. Taxation issues related to other U.S. 
Government contracts in Afghanistan, such as taxation of contractors 
that support activities of the Department of State, are addressed in 
other international agreements with the Afghan Government. We firmly 
believe that it is important that exemptions available under applicable 
international agreements are claimed for the benefit of the U.S. 
Government and U.S. taxpayer.
                                metrics
    Question. Even though the administration speaks positively about 
the security transition, opinions vary greatly about whether Afghans 
are actually safer. I hear from some contacts that security has 
deteriorated countrywide, civilian casualty rates are rising, and the 
insurgency is spreading.

  <bullet> What metrics is ISAF using to measure if the transition is 
        really working? Where can the committee find this information? 
        Is ISAF still collecting statistics on violence rates and 
        civilian casualties?

    Answer. The Department of Defense (DOD) assesses success in 
Afghanistan by utilizing data from many sources, including reports from 
the International Security Assistance Force (ISAF) and U.S. 
intelligence agencies. Contrary to what you have heard, overall 
violence is down compared to last year. Civilian casualties have 
decreased significantly and insurgent influence over the populated 
areas of Afghanistan continues to decline. Our most comprehensive 
single metric for violence in Afghanistan is Enemy Initiated Attacks 
(EIAs). As of June 30, 2013, EIAs had declined 6 percent when compared 
to 2012. Additionally, as of June 30, 2013, improvised explosive device 
events were down 10 percent, and suicide attacks were down 23 percent 
compared to the previous year.
    DOD's comprehensive assessment of the conflict in Afghanistan, the 
semiannual report to Congress on ``Progress Toward Security and 
Stability in Afghanistan,'' draws from an array of security, 
governance, and economic metrics that provide an accurate and 
comprehensive picture of the overall situation in Afghanistan. These 
metrics include: improvised explosive device events, direct fire 
attacks, high-profile attacks, complex attacks, indirect-fire attacks, 
civilian casualties, Afghan National Security Force (ANSF) capability 
ratings, ANSF operational reporting, ANSF facilities construction and 
maintenance, ANSF funding, ANSF recruitment, GDP growth rates, 
population polling, international community donations to Afghanistan, 
Afghan Government budget execution rates, school attendance, economic 
infrastructure build, cell phone usage, counternarcotics indicators, 
health indicators, and many other metrics and indicators. This report--
released July 30, 2013--is unclassified, publicly available on the 
Department's Web site, and has been made available in printed form to 
all Members of Congress.
    ISAF collects statistics on civilian casualties (CIVCAS), which are 
also included in the Department's report on ``Progress Toward Security 
and Stability in Afghanistan.'' Between October 1, 2012, and March 31, 
2013, CIVCAS from all sources decreased by 11 percent compared to the 
same period a year ago. The majority of these CIVCAS were caused by 
insurgents. ISAF-caused CIVCAS decreased by 72 percent, the results of 
extensive ISAF mitigation actions. There was a 50 percent decrease in 
ISAF-caused CIVCAS by precision-guided munitions from October 2012 to 
March 2013. Insurgent-caused CIVCAS also decreased by 10 percent.
    As our presence in Afghanistan is reduced, our ability to observe 
and collect much of these data will also decline.
                 counternarcotics police of afghanistan

    Question. I have serious concerns about U.S. planning for the 
Counternarcotics Police of Afghanistan (CNP-A). While the CNP-A vetted 
units have made significant progress, they have had limited success in 
breaking the nexus between narcotics and the insurgency. More 
troubling, however, are the CNP-A provincial units which seem to lack 
any coherent strategy for their development. The Defense Department 
(DOD) has been a major funder of the CNP-A, contributing some $40 
million a year in operating costs, in addition to transportation, 
logistics, and security support from DOD assets. As DOD and State 
Department's INL funding dries up, there could be a significant impact 
on CNP-A operations, causing manpower reductions and rendering many 
operations unsustainable. The U.S. Government needs a coordinated 
strategy and approach for the funding and development of the CNP-A, 
beyond the vetted units; currently, responsibility is diffuse among 
different agencies with no clear chain of command for making policy 
decisions. The U.S. Government should assess whether the development of 
the CNP-A, particularly the provincial units, is realistic, achievable, 
and sustainable before the 2014 transition.

  <bullet> Does the U.S. Government have a coordinated strategy for the 
        development of the CNP-A provincial units? If so, please share 
        in detail with the Committee. If not, please justify why we 
        continue to spend money on CNP-A development.

    Answer. DOD acknowledges the critical need to continue developing 
the Counternarcotics Police of Afghanistan (CNPA). The U.S. Government 
has an interagency-coordinated strategy, approved by senior leadership 
in December 2012, to address counternarcotics (CN) issues in 
Afghanistan, an approach which includes the CNPA. This strategy calls 
for continuing efforts to build the capacity of the CNPA, and proposes 
the establishment of a roadmap to create a sustainable and accountable 
Afghan-led police force by the end of 2014. The strategy also calls for 
the Ministry of Counter Narcotics to develop incentives for provincial 
governors to undertake more robust CN initiatives. In addition to these 
efforts, DOD is developing a post-2014 CN strategy for Afghanistan and 
plans to deliver this strategy to congressional defense committees by 
late August 2013.
                                 sigar
    Question. In recent months, the Special Inspector General for 
Afghanistan Reconstruction (SIGAR) has issued a number of troubling 
reports about our reconstruction efforts in Afghanistan. Through its 
audit and inspection work, SIGAR has identified numerous examples in 
which the United States created a program or built a facility without 
consideration as to whether the Afghan Government could sustain it.

  <bullet> a. Which programs and projects funded by the Defense 
        Department are least likely to be sustained by the Afghan 
        Government?
  <bullet> b. What steps is your office taking to respond to the many 
        problems SIGAR has identified and increase oversight 
        responsibilities of assistance in Afghanistan?

    Answer. Facility maintenance remains a significant challenge for 
the ANSF. As more than 3,900 projects come to completion, the ANSF will 
need to fully develop its own organic capability to maintain 
facilities. Due to the scale of the reconstruction effort and the 
diversity of metrics used to determine facility sustainability, the 
Department of Defense (DOD) does not maintain a list of at-risk 
facilities. However, the United States and its coalition partners 
remain committed to ensuring the long-term sustainability of these 
facilities by the Afghans.
    DOD has expanded its assessments of certain capital projects in 
Afghanistan, as required by Section 1273 of the National Defense 
Authorization Act for Fiscal Year 2013, to help ensure that all the 
projects we undertake are both needed and sustainable. In addition to 
DOD initiatives, the NATO Training Mission-Afghanistan (NTM-A) has 
focused on building facility stewardship by 2014, and is showing 
continual progress in achieving this goal. The general approach to 
building facility stewardship capacity is along four lines of effort: 
(1) hiring facilities engineers; (2) training facility engineers; (3) 
provision of tools and equipment; and (4) delegating appropriate 
authorities and developing routine processes so maintenance is 
consistently executed to high standards. NTM-A also remains committed 
to constant review of ANSF infrastructure projects, to ensure that they 
still meet valid requirements. This oversight has resulted in almost 
100 projects being cancelled or descoped in size, reducing the total 
cost of the ANSF program from the originally planned $11.38 billion to 
$9.41 billion.
                                 ______
                                 

    Response of Acting Assistant Secretary Peter Lavoy to Question 
               Submitted by Senator Robert P. Casey, Jr.

                       regional command southwest
    Question. On July 10, the Washington Post reported that the U.S. 
military spent $34 million building a massive command headquarters for 
Regional Command Southwest (RC-Southwest), which was just completed. 
Special Inspector General Sopko's report indicates the facility will 
never be fully inhabited and will either be demolished or turned over 
to the Afghan Government in 2014.

  <bullet> How would you explain to the American people that their 
        taxpayer dollars were spent on such a project, which will never 
        serve its intended purpose and may even be demolished within a 
        year of completion? Will you commit that no further money will 
        be spent on the construction and outfitting of this facility 
        until all of the Special Inspector General's questions in his 
        July 8 letter are answered? Will you commit to making your 
        response to his letter available to the public?

    Answer. The Department of Defense (DOD) is committed to pursuing 
reconstruction projects that are valuable, desired, and sustainable. 
Construction and infrastructure development has focused on developing 
the civilian and military infrastructure that will be critical to 
ensuring the stability of Afghanistan once U.S. and coalition forces 
depart. These programs continue to bear fruit, and DOD is encouraged by 
the impact reconstruction efforts are having in Afghanistan. However, 
due to the difficult and dynamic environment operational environment, 
there have been cases where projects initiated on one set of 
assumptions encounter problems when circumstances change.
    We have received the SIGAR letter and intend to provide a response 
to the points that are raised in it. We cannot comment further on the 
specifics at this time, as the matter is currently under investigation 
by U.S. Forces-Afghanistan (USFOR-A).
    On June 23, 2013, Commander, USFOR-A, opened an investigation under 
Army Regulation 15-6 to determine the facts and circumstances that led 
to construction of the Command and Control (C2) facility in Regional 
Command-Southwest, appointing a major general to lead the 
investigation. This investigation is ongoing. No findings have been 
approved, and no final determinations have yet been made as to 
decisions, communications, or other actions by any particular 
individual or organization. However, we are committed to sharing the 
results of the investigation when it is completed.
                                 ______
                                 

   Responses of Acting Assistant Secretary Peter Lavoy to Questions 
                    Submitted by Senator Jeff Flake

                            washington post
    Question. The Washington Post reported on July 9 that, ``In 
northern Afghanistan, the State Department last year abandoned plans to 
occupy a large building it had intended to use as a consulate. After 
spending more than $80 million and signing a 10-year lease, officials 
determined the facility was too vulnerable to attacks.'' The report 
also details a $34 million new military headquarters in Afghanistan 
that ``commanders in the area, who insisted 3 years ago that they did 
not need the building, now are in the process of withdrawing forces and 
see no reason to move into the new facility.'' This example, in 
addition to the other egregious examples of wasted taxpayer dollars 
outlined in the report are unfortunately reminiscent of what we saw 
with regard to Iraq reconstruction projects, as well.

  <bullet> a. After commanders in the area said 3 years ago that they 
        had no interest in the facility, why was construction continued 
        on it? Who foisted the building on those commanders? What was 
        the decisionmaking process on this and who was ultimately 
        responsible for approving construction of the facility?
  <bullet> b. Three years ago when this facility began construction, 
        discussions about withdrawal from Afghanistan had already begun 
        inside the administration. What considerations were given to 
        any potential withdrawal when plans to construct this facility 
        began?
  <bullet> c. How is the State Department using the lessons learned 
        from Iraq reconstruction to put a better, less expensive foot 
        forward in post-war Afghanistan?
  <bullet> d. Are the Departments of Defense and State collaborating on 
        the use of existing infrastructure in Afghanistan to minimize 
        costs going forward?
  <bullet> e. To what degree is the State Department consulting the 
        Government of 
        Afghanistan over what its infrastructure needs are, and what it 
        can support?

    Answer. The Department of Defense (DOD) is committed to pursuing 
reconstruction projects that are valuable, desired, and sustainable. 
Construction and infrastructure development has focused on developing 
the civilian and military infrastructure that will be critical to 
ensuring the stability of Afghanistan once U.S. and coalition forces 
depart. These programs continue to bear fruit, and DOD is encouraged by 
the impact reconstruction efforts are having in Afghanistan. However, 
due to the difficult and dynamic environment operational environment, 
there have been cases where projects initiated on one set of 
assumptions encounter problems when circumstances change.
    On June 23, 2013, Commander, U.S. Forces-Afghanistan (USFOR-A) 
opened an investigation under Army Regulation 15-6 to determine the 
facts and circumstances that led to construction of the Command and 
Control (C2) facility in Regional Command-Southwest (RC-SW), appointing 
a major general to lead the investigation. This investigation is 
ongoing; no findings have been approved, and no final determinations 
have yet been made as to decisions, communications, or other actions by 
any particular individual or organization.
    The Departments of Defense and State share a strong interest in 
ensuring the appropriate use of U.S. taxpayer dollars. Our agencies are 
institutionalizing the lessons learned from Iraq and Afghanistan (such 
as enhanced program oversight, higher contractor performance standards, 
and improved management processes) to ensure the highest levels of 
interagency communication and collaboration.
    For more specific information on the State Department's Mazar-e-
Sharif facility, the Department's consultations with the Government of 
Afghanistan on infrastructure needs, or the applicability of lessons 
learned from Iraq reconstruction on their efforts in post-war 
Afghanistan, we refer you to the Department of State.
                    projects failed or near failure
    Question. The Inspectors General for Reconstruction in Iraq and 
Afghanistan, respectively, have identified many projects that spent 
millions of U.S. taxpayer dollars and yet despite these investments, 
the projects have failed or are near failure. In Iraq, for example, a 
wastewater treatment plant built in Fallujah ``was constructed at great 
cost but to little effect,'' according to the inspector general, 
serving, ``only a fraction of those intended.'' That project cost $99.8 
million. In Afghanistan, the inspector general found that an investment 
of $18.5 million by USAID in two hospitals ``may not be the most 
economical and practical use of funds,'' because ``USAID did not fully 
assess the Ministry of Public Health's ability to operate and maintain 
these new facilities once completed.''

  <bullet> a. To what degree is consideration given to the host 
        country's ability to maintain facilities such as these when the 
        United States turns them over?
  <bullet> b. Why didn't USAID fully assess the ability of the 
        Afghanistan Ministry of Public Health to manage this facility 
        before it was constructed? Is this typical of the way USAID 
        manages assistance projects?
  <bullet> c. The transition in Afghanistan will be operating during a 
        time of fiscal austerity in the United States. How do you 
        anticipate that the declining budgets of State and USAID will 
        affect these types of projects moving forward?
  <bullet> d. Will these projects be paid for using overseas 
        contingency operations funds?
  <bullet> e. Has there been any effort inside State and USAID to learn 
        from past mistakes and avoid making them in the future?

    Answer. The Department of Defense (DOD) is committed to pursuing 
reconstruction projects that are valuable, desired, and sustainable. 
Construction and infrastructure development has focused on developing 
the civilian and military infrastructure that will be critical to 
ensuring the stability of Afghanistan once U.S. and coalition forces 
depart. These programs continue to bear fruit, and DOD is encouraged by 
the impact reconstruction efforts are having in Afghanistan. However, 
due to the difficult and dynamic environment operational environment, 
there have been cases where projects initiated on one set of 
assumptions encounter problems when circumstances change.
    Sustainability, specifically the ability of the Afghan Government 
to maintain completed efforts, has been, and continues to be a factor 
in DOD's project selection. DOD has expanded its assessments of certain 
capital projects in Afghanistan, as required by Section 1273 of the 
National Defense Authorization Act for Fiscal Year 2013, to ensure that 
these projects are both needed and sustainable. In response to your 
direct questions regarding USAID, I respectfully defer to my colleagues 
from the Department of State and USAID, Ambassador Dobbins.
                                immunity
    Question. Negotiations are underway for a bilateral security 
agreement between the United States and Afghanistan that would provide 
immunity for U.S. troops remaining in Afghanistan in a post-2014 
environment. According to CRS, ``observers report that negotiations 
have bogged down over Afghan demands for guarantees that the United 
States will adequately fund the ANSD for at least several years after 
2014.''

  <bullet> a. What kinds of guarantees is President Karzai looking for 
        and what does he believe to be ``adequate'' funding for the 
        ANSF?
  <bullet> b. What is the administration's position on providing 
        funding for the ANSF and how much of a sticking point will that 
        be in any ultimate agreement?

    Answer. Negotiations between the United States and Afghanistan on 
the Bilateral Security Agreement (BSA) are ongoing, and as a result we 
will not discuss the negotiating positions of the Afghan Government. 
However, the United States remains prepared to negotiate with 
Afghanistan to conclude a BSA that supports our shared objectives. On 
the question of guarantees, only the Afghans themselves can guarantee 
the security of Afghanistan. The United States strongly supports 
President Karzai's vision, as stated in his 2009 inaugural speech, of 
an Afghanistan able to provide for its own security in 2014 and beyond. 
This is the sovereign responsibility of the Afghan Government, and 
Afghans will provide for their own defense, with support from the 
international community.
    The BSA will enable U.S. forces to continue to remain in 
Afghanistan after 2014 to carry out a train, advise, and assist mission 
and a narrow counterterrorism mission.
    We strongly support continued U.S. funding of the Afghan National 
Security Forces (ANSF) as a wise investment in achieving our objectives 
in Afghanistan. A capable, sustainable ANSF is central to our strategic 
objective of ensuring Afghanistan never again becomes a safe haven for 
al-Qaeda or its affiliates.

                                  <all>

</pre></body></html>
